<html>
<title> - THE REGIONAL IMPACT OF THE WESTERN HEMISPHERE TRAVEL INITIATIVE</title>
<body><pre>[Senate Hearing 109-951]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-951
 
    THE REGIONAL IMPACT OF THE WESTERN HEMISPHERE TRAVEL INITIATIVE 

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2006

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                     U.S. GOVERNMENT PRINTING OFFICE

33-735 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                JOHN E. SUNUNU, New Hampshire, Chairman

GEORGE V. VOINOVICH, Ohio            BILL NELSON, Florida
GEORGE ALLEN, Virginia               JOSEPH R. BIDEN, Jr., Delaware
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California

                                  (ii)

  


























                            C O N T E N T S

                              ----------                              
                                                                   Page

 Barrett, Ann, Managing Director of Passport Services, Department 
  of State, Washington, DC.......................................    10
    Prepared statement...........................................    13
Goode, Henry, deputy director, New Hampshire Division of Travel 
  and Tourism Development, Concord, NH...........................    41
    Prepared statement...........................................    43
Gorton, Hon. Thomas Slade III, former U.S. Senator, former 
  Commissioner of the 9/11 Commission of Counsel, Preston Gates & 
  Ellis LLP, Seattle, WA.........................................    21
    Prepared statement...........................................    24
Hanson, Gail, executive director, New Hampshire Snowmobiler's 
  Association, Bow, NH...........................................    29
    Prepared statement...........................................    31
Jacksta, Robert M., Executive Director, Traveler Security and 
  Facilitation, Office of Field Operations, U.S. Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  DC.............................................................     4
    Prepared statement...........................................     7
Johnson, Hon. Carl R., New Hampshire State Senator, cochair 
  General Court's NH-Canadian Trade Council, Concord, NH.........    33
    Prepared statement...........................................    35
O'Connor, Jayne, president, White Mountain Attractions, North 
  Woodstock, NH..................................................    37
    Prepared statement...........................................    40
Sununu, Hon. John E., U.S. Senator from New Hampshire, opening 
  statement......................................................     1

              Additional Material Submitted for the Record

Charest, Jean, le premier ministre du Quebec, letter sent to 
  Secretary Rice and Secretary Chertoff..........................    48
Dionne, France, Quebec's Delegate to New England, Boston, MA, 
  prepared statement.............................................    46
 Roche, Jim, president, Business and Industry Association, New 
  Hampshire, prepared statement..................................    45

                                 (iii)

  


    THE REGIONAL IMPACT OF THE WESTERN HEMISPHERE TRAVEL INITIATIVE

                              ----------                              


                        WEDNESDAY, MAY 31, 2006

                           U.S. Senate,    
   Subcommittee on International Operations
                                     and Terrorism,
                            Committee on Foreign Relations,
                                                       Concord, NH.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
Sweeney Hall, New Hampshire Technical Institute, Hon. John E. 
Sununu (chairman of the subcommittee) presiding.
    Present: Senator Sununu.

           OPENING STATEMENT OF HON. JOHN E. SUNUNU,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Good morning. I want to welcome all of you 
to today's field hearing. This is a field hearing of the 
Foreign Relations Committee--Subcommittee on International 
Operations and Terrorism.
    We oversee a number of the programs and policies related to 
how the United States interacts with our neighbors, with other 
countries, through diplomatic and other programs, and the 
infrastructure that we have in place to facilitate that 
security and that diplomatic interaction.
    Without question, September 11 changed a lot of that 
infrastructure and the way we view the processes, the 
procedures, and the systems for interacting with other 
countries.
    The September 11 Commission highlighted a number of 
vulnerabilities we have with respect to security arrangements, 
and one of the many aspects that they focused upon was the 
long-standing practice of not requiring a passport of either 
American or Canadian citizens to cross the common border that 
we share with Canada.
    There are, or were, thousands of different combinations of 
driver's licenses, birth certificates, and other documents that 
were, in the opinion of the commission, highly susceptible to 
fraud and something that both illegal immigrants and terrorists 
could potentially exploit.
    Congress reacted by implementing or adopting the Western 
Hemisphere Travel Initiative, which is an attempt to move us to 
a more secure means of facilitating this cross-border traffic.
    It required a plan for U.S. citizens and foreign nationals 
to present a passport at the border when entering the United 
States.
    The timeline for implementing this program for air and 
seaports is December 31, 2006; and for the land crossings, 
which is of great interest to a State like New Hampshire, 
December 31, 2007.
    There is, at the moment, under discussion in Congress to 
delay the implementation for those land crossings beyond 
December 31, 2007; and the hearing today is an opportunity to 
look at that proposal, to look at the concerns that people in 
New Hampshire and northern New England might have with regard 
to this travel initiative; the costs associated with the 
program; the impact that it might have on travel, tourism, and 
trade; and a host of issues associated with the new program.
    It's important, I think, to keep in mind what we do have--
the special relationship that we do have--with Canada. We share 
what is effectively the longest unsecured, unfortified border 
in the world.
    We share membership in the United Nations, in NATO, the 
OIS, the WTO, and the OCB. Our troops work alongside one 
another in places like Afghanistan and other peacekeeping 
missions around the world.
    The United States and Canada historically have been closely 
linked, both diplomatically and militarily, in some of our 
overseas missions and economically.
    Over $400 billion in cross-border trade that supports over 
5 million jobs in the United States. Over 300,000 Americans and 
Canadians travel between the two countries every day.
    If you just look at those very simple numbers, you can 
quickly understand how important it is that we get a program 
like this designed correctly, and that we make sure that it 
doesn't have an unnecessarily negative impact on these 
wonderful trade, tourism, economic, diplomatic, and military 
relationships that we share.
    For New Hampshire, we don't have a crossing that is the 
size of that in Niagara Falls or Windsor, Michigan, or even 
Burlington; but it is a vital and important relationship.
    We have 24 percent of our exports going to Canada--that's 
over $500 million. Over 300,000 Canadians visited New Hampshire 
during 2004--tens of millions of dollars in receipts for our 
travel and tourism industry; and an equal number of residents 
of New Hampshire traveling to Canada, for business, with their 
families, for pleasure.
    I was talking with someone earlier--these are visits and 
interactions that aren't just for travel or shopping or 
skiing--they really do reflect some of the cultural ties, as 
well, that bind our communities.
    Right now, the State Department and the Department of 
Homeland Security are engaged in a rulemaking process to 
develop a PASS card for Americans that will meet the 
requirements of this travel initiative without necessarily 
requiring the purchase of a full passport.
    But there are natural concerns about the costs of such a 
program. The potential processing delays for obtaining a card 
which could certainly affect someone that wants to travel on 
the spur of the moment on any given weekend, and the increase 
of backups at the border.
    And just this past week there was a story in the Concord 
Monitor about implementation of ID checks at the border 
crossings in Vermont and the resulting delays were 20 minutes, 
a half an hour or more, and certainly caught people by 
surprise.
    And, of course, the timeliness of the implementation, which 
I touched on earlier.
    Of equal concern is the potential chilling effect that any 
new requirement might have on movement of people, movement of 
goods, business interaction, and the negative consequences that 
might arise as travelers find themselves either delayed or 
inconvenienced or unable to return as quickly as they would 
like from a given visit.
    The Senate did pass the delay that I mentioned delaying 
implementation for the land crossings until July 1 of 2009, but 
it certainly isn't clear whether that legislation will see 
action in the House of Representatives.
    So while this is something that Members of Congress have 
focused some attention on, I certainly believe there's a need 
for greater discussion of these issues in order to ensure that 
Congress moving forward, makes good choices about 
implementation, good choices about the rules or regulations 
associated with particular forms of identity, and good choices 
about the timing for making the program fully effective.
    One consideration would be to take some of this effort, 
this focus on the travel initiative, and direct it to creating 
a stronger common external border, similar to that which has 
been implemented in the European Union, effectively 
establishing much stronger security parameters for ports of 
entry in the United States and Canada, sharing information, 
sharing security technology and, as a result of stronger 
external borders, being able to maintain a greater level of 
freedom of movement across our shared border.
    And this is obviously an approach that has worked to a 
large extent in Europe. It certainly wouldn't be easy to 
implement. I don't think any of these proposals are easy to 
implement, but it is an option that is worth considering.
    Today we're very fortunate in the group of witnesses that 
have agreed to participate--to provide their testimony. I will 
read through the witnesses before we begin, but it would be a 
mistake if I didn't take a moment to thank those that have 
helped us in putting together the hearing today here at New 
Hampshire Technical Institute.
    President Lynn Kilchenstein and her staff have been 
extraordinarily helpful; and we are also joined by some 
students. I do want to recognize Londonderry High School, and 
from Sunapee, Mount Royal Academy. So we have some students 
here that hopefully are learning a little bit about both the 
interactions between the United States and Canada, New 
Hampshire, and our neighbors to the north, but also a little 
bit about how the government works.
    Joining us from the United States Government is Ann Barrett 
from the Department of State, and Robert Jacksta from the 
Department of Homeland Security, who will be in a position to 
discuss the current plans for administration, both of the 
travel initiative and the accompanying PASS card.
    We also, on the second panel, will have a former United 
States Senator and a member of the 9/11 Commission, Slade 
Gorton, who can talk about the perspective that the commission 
brought to the issue of travel documentation and security.
    From here in New Hampshire, on a third panel, we'll be 
joined by Senator Carl Johnson and Gail Hanson, who is director 
of the New Hampshire Snowmobile Association.
    And a final panel will consist of Henry Goode from the 
Department of Travel and Tourism and Jayne O'Connor, president 
of White Mountain Attractions.
    I know a lot of our panelists have traveled from 
Washington, DC, so I'm very grateful for the time that they've 
given. Ms. Barrett was previously at the National Passport 
Center here in New Hampshire, so this is really a welcome back 
for her.
    The way this will work is we'll hear testimony from each of 
the panelists. Their full statements will be included in our 
hearing record. The record will be held open until June 9, in 
case they want to add any supporting documentation or there 
might be questions that are asked that they want some time to 
respond to.
    We also are very pleased to be including in the record, 
submissions from both the Government of Canada and the Province 
of Quebec. We have a statement by the Province of Quebec's 
delegate in New England, and the premiere of Quebec has 
included a letter to Secretary of State Condoleezza Rice and 
Homeland Security Secretary Chertoff about this program.
    [Editor's note. The referenced submissions appear in the 
Additional Material Submitted for the Record section at the end 
of this hearing.]
    Finally, we have a resolution that's been adopted by the 
Conference of New England Governors and Eastern Canadian 
Premieres.
    So it's a record that I hope will be complete in covering 
perspectives that are national, that are regional, that are 
local, that deal with economic issues, cultural issues, 
security issues, and trade issues as well.
    Again, welcome, and we're pleased to begin with Mr. 
Jacksta.

 STATEMENT OF ROBERT M. JACKSTA, EXECUTIVE DIRECTOR, TRAVELER 
  SECURITY AND FACILITATION, OFFICE OF FIELD OPERATIONS, U.S. 
CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Mr. Jacksta. Good morning, Chairman Sununu and other 
distinguished members of the community.
    I am pleased to be here today to discuss how the Department 
of Homeland Security is moving swiftly to mitigate 
vulnerabilities at our borders; and, in particular, our efforts 
to strengthen documentation requirements for travel in the 
Western Hemisphere.
    The Intelligence Reform and Terrorism Prevention Act of 
2004 includes important mandates that are designed to close 
long-standing vulnerabilities at our ports of entry and to help 
ensure that our borders are not compromised by those who seek 
to do us harm.
    Addressing any major issue at the land border presents many 
challenges. We have over 7,000 miles of shared borders with 
Canada and Mexico; and each day Customs and Border Protection 
officers inspect more than 1.1 million passengers and 
pedestrians, including many who reside in border communities 
who cross legally and contribute to the economic prosperity of 
our country and our neighbor's.
    Maintaining this flow is critical. However, we must be 
confident in our determination of who is crossing our borders.
    In fiscal year 2005, over 84,000 individuals were 
apprehended at the ports of entry trying to cross the border 
with fraudulent claims of citizenship or documents. Moreover, 
on an average day, CBP intercepts more than 200 fraudulent 
documents, arrests over 60 people at ports of entry, and 
refuses entry to hundreds of noncitizens, a few dozen of which 
are criminal aliens trying to enter the United States.
    As the 9/11 Commission report stressed, security 
requirements governing travel to and from Canada, Mexico, and 
other parts of the Caribbean should be treated as equivalent to 
security requirements for travel from other parts of the world.
    Just as passenger behavior in the commercial air industry 
has changed since the terrorist attack of 9/11, travelers 
within the Western Hemisphere, and particularly through our 
land borders, must also become accustomed to possessing 
authorized travel documents when crossing the border.
    We view the fact that some individuals currently cross the 
border without verifiable documents or without any type of 
travel or identity documents in their possession as a 
significant vulnerability to our national security.
    In section 7209 of the Intell Reform Act, Congress has 
mandated that by January 1, 2008, the Secretary of Homeland 
Security, in consultation with the Secretary of State, develop 
and implement a plan to require U.S. citizens and foreign 
nationals to present a passport or other approved documentation 
to enter or reenter the United States.
    This documentation must confirm both identity and 
citizenship. Under current regulations, U.S. citizens who 
travel solely within the Western Hemisphere do not require 
passports or any other specific documents to return to the 
United States. A similar exemption applies to most Canadians 
and Bermudan citizens entering the United States from within 
the Western Hemisphere.
    The Western Hemisphere Travel Initiative, commonly known as 
WHTI, will satisfy the legislative mandate established by the 
Intell Reform Act by requiring all U.S. citizens and those 
Canadian, Bermudan, and Mexican citizens currently exempt from 
passport requirements under the Immigration and Naturalization 
Act or by regulation to have a passport or other authorized 
secure documents denoting citizenship and identity when 
entering the United States.
    WHTI will standardize documents that may be presented at 
ports of entry to demonstrate identity and citizenship, 
allowing DHS to more effectively secure our borders and also 
streamline the entry process into the United States for 
travelers.
    The standardization of travel documents is a critical step 
in securing our Nation's borders. Currently, there are 
thousands of different documents that a traveler can present to 
a CBP officer when attempting to enter the United States, 
creating a tremendous potential for fraud.
    DHS and Department of State are currently developing plans 
to produce an alternate form of U.S. passport for use at land 
border crossings. DHS and Department of State realize that a 
traditional passport may not be the most convenient form of 
documentation for land border use, particularly for frequent 
crossers.
    Therefore, Secretary Chertoff and Secretary Rice jointly 
announced the proposed travel card for U.S. citizens. The DOS-
issued travel card is envisioned as a wallet-sized card that 
would be convenient to obtain and would cost less than a 
traditional passport.
    DOS will adjudicate eligibility for the passport card in 
the same way that it adjudicates eligibility for the 
traditional book passport. The card will contain security 
features and will use technology to link the identity and 
citizenship of the bearer to the U.S. Government database. 
Travelers will only be able to use this card to cross the land 
borders between the United States and Canada and Mexico.
    Because of the need to ensure that frequent crossers and 
residents of border communities can obtain necessary documents 
to ensure continued cross-border traffic, we are reviewing a 
variety of document options for these travelers, including the 
DOS-produced passport card for U.S. citizens, the border 
crossing cards for Mexican citizens, and the expansion of 
trusted traveler programs which would help expedite low-risk 
travelers, particularly those who work or reside in local 
border communities and make frequent trips across the borders 
as a routine part of their lives.
    DHS and Department of State are also focused on an 
extensive outreach and education campaign to ensure that the 
documentation requirements of WHTI are publicized and well 
known to all travelers.
    While there are current procedures in place to address 
cases of unforeseen humanitarian or national interest 
emergencies or instances where U.S. citizens lose their 
passports while traveling aboard, CBP would encourage all U.S. 
citizens to obtain the appropriate documents before they 
travel.
    Given the magnitude of change this initiative will entail, 
DHS and Department of State, in consultation with other 
Government agencies, have proposed a two-phased implementation 
plan for WHTI. This approach was outlined in the Advanced 
Notice of Proposed Rulemaking which was published in the 
Federal Register in September 2005 and had a 60-day public 
comment period.
    In this notice we envisioned air and sea implementation on 
December 31, 2006, and land implementation on December 31, 
2007.
    In response to our advance notice, approximately 2,000 
public sources submitted comments, including governors, mayors, 
police chiefs, tribal leaders, business leaders, and border 
community members. We are currently considering all of these 
comments.
    Both DHS and Department of State recognize the unique 
issues that the initiative will raise, and we will remain 
flexible when working with the affected entities and 
communities.
    We will continue to work with Congress to address the 
important issues of border security and immigration reform. We 
feel that WHTI is an essential step in our layered approach to 
security at our borders.
    The Department of State and DHS will use all its resources 
to implement this travel initiative by the deadline set forth 
in the law.
    Mr. Chairman, thank you for inviting us here today; and 
I'll be able to address any questions.
    [The prepared statement of Mr. Jacksta follows:]

 Prepared Statement of Robert M. Jacksta, Executive Director, Traveler 
Security and Facilitation, Office of Field Operations, U.S. Customs and 
   Border Protection, Department of Homeland Security, Washington, DC

    Chairman Sununu, distinguished members of the subcommittee, I am 
pleased to be here today to discuss how the Department of Homeland 
Security (DHS) is moving swiftly to mitigate vulnerabilities at our 
borders, and in particular, our efforts to strengthen documentation 
requirements for travel in the Western Hemisphere. The Intelligence 
Reform and Terrorism Prevention Act of 2004 (IRTPA) includes important 
mandates that are designed to close long-standing vulnerabilities at 
our ports of entry and to help ensure that our borders are not 
compromised by those who seek to do us harm.
    Addressing any major issue at the land border presents many 
challenges. We have over 7,000 miles of shared borders with Canada and 
Mexico, and each day DHS Customs and Border Protection (CBP) Officers 
inspect more than 1.1 million passengers and pedestrians, including 
many who reside in border communities who cross legally and contribute 
to the economic prosperity of our country and our neighbors. 
Maintaining this flow is critical; however, we must be confident in our 
determinations of who is crossing our border. In fiscal year 2005, over 
84,000 individuals were apprehended at the ports of entry trying to 
cross the border with fraudulent claims of citizenship or documents. 
Moreover, on an average day, CBP intercepts more than 200 fraudulent 
documents, arrests over 60 people at ports of entry, and refuses entry 
to hundreds of noncitizens, a few dozen of which are criminal aliens 
that are attempting to enter the United States. As the 9/11 Commission 
report stressed, security requirements governing travel to and from 
Canada, Mexico, and parts of the Caribbean should be treated as 
equivalent to security requirements for travel to and from other parts 
of the world.
    We realize the potential consequences that any changes to address 
these vulnerabilities could have on international travel, particularly 
in the land border environment, where approximately 2 percent of 
travelers crossing the border are responsible for nearly 48 percent of 
all cross-border trips, and the cross-border cultures are vibrant and 
dynamic.
    However, just as passenger behavior in the commercial airline 
industry has changed since the terrorist attacks of 9/11, travelers 
within the Western Hemisphere, and particularly through our land 
borders, must also become accustomed to possessing authorized travel 
documents when crossing the border. We view the fact that some 
individuals currently can cross the border without verifiable documents 
or without any type of travel or identity documents in their possession 
as a significant vulnerability to our national security.
    In section 7209 of IRTPA, Congress has mandated that, by January 1, 
2008, the Secretary of Homeland Security, in consultation with the 
Secretary of State, develop and implement a plan to require U.S. 
citizens and foreign nationals to present a passport or other approved 
documentation to enter or reenter the United States. This documentation 
must confirm both identity and citizenship. Under current regulations, 
U.S. citizens who travel solely within the Western Hemisphere do not 
require passports, or any other specific documents, to return to the 
United States. A similar ``exemption'' applies to most Canadian and 
Bermudan citizens entering the United States from within the Western 
Hemisphere.
    The Western Hemisphere Travel Initiative (WHTI) will satisfy the 
legislative mandate established by the IRTPA by requiring all United 
States citizens, and those Canadian, Bermudan, and Mexican citizens 
currently exempted from the passport requirement under the Immigration 
and Nationality Act or by regulation, to have a passport or other 
authorized secure documentation denoting citizenship and identity when 
entering the United States. WHTI will standardize the documents that 
may be presented at ports of entry to demonstrate identity and 
citizenship, allowing DHS to more effectively secure our border, and 
also streamlining the entry process into the United States for 
travelers.
    The standardization of travel documents is a critical step in 
securing our Nation's borders. Currently, there are thousands of 
different documents that a traveler can present to CBP officers when 
attempting to enter the United States, creating a tremendous potential 
for fraud. Standardized documents will also eliminate the time-
consuming, manual process of reviewing and validating a host of 
distinct, and sometimes illegible and unverifiable, birth certificates 
and other identity documents. Having standardized documents will enable 
automated reading and vetting of the information, which will also be 
essential to the facilitation benefits of the initiative, as valuable 
time is wasted and accuracy is reduced if manual entry of the 
information is necessary to perform necessary database and watchlist 
queries of passengers. Automated reading and vetting of identity 
documents will also be an important tool for CBP in distinguishing the 
small set of incoming travelers who pose a potential threat from the 
legitimate traveling public.
    The statute expressly identified the passport as an acceptable 
document for cross-border travel. Passports represent the ``gold 
standard'' of identity and citizenship documents. They incorporate a 
host of security features not normally found or available on other 
identity documents, including birth certificates and driver's licenses. 
Further, a United States passport is only issued to persons who have 
established citizenship in the United States by birth, naturalization, 
or derivation, as adjudicated by trained Department of State (DOS) 
officers.
    The primary purpose of the passport has always been to facilitate 
travel to foreign countries by establishing United States citizenship 
and identity, while acting as a vehicle to display any appropriate 
visas and/or entry/exit stamps that may be necessary. The passport 
booklet is an essential tool that CBP officers review to assess risk 
and determine admissibility.
    Currently, DHS and DOS are also developing plans to produce an 
alternative form of the U.S. passport for use at land border crossings. 
DHS and DOS realize that a traditional passport book may not be the 
most convenient form of documentation for land border use, particularly 
for frequent crossers. Therefore, Secretary Chertoff and Secretary Rice 
jointly announced a proposed travel card for U.S. citizens. The DOS-
issued travel card is envisioned as a wallet-sized card that would be 
convenient to obtain, and would cost less than a traditional passport. 
DOS will adjudicate eligibility for the passport card in the same way 
that it adjudicates eligibility for the traditional book passport. The 
card will contain security features and will use technology to link the 
identity and citizenship of the bearer to a U.S. Government database. 
Travelers will only be able to use this card to cross the land borders 
between the United States, Canada, and Mexico.
    Because of the need to ensure that frequent crossers and residents 
of border communities can obtain necessary documents to ensure 
continued cross-border travel, we are reviewing a variety of document 
options for these travelers, including the DOS-produced passport card 
for U.S. citizens, border crossing cards (BCCs) for Mexican citizens, 
and the expansion of ``trusted traveler'' programs, which would 
expedite low-risk travelers, particularly those who reside in border 
communities, and make frequent trips across the border as a routine 
part of their daily lives.
    The U.S. Government issues BCCs to Mexican nationals who cross the 
United States border on a regular basis. To obtain a BCC, a traveler 
must have a passport. Since the BCC is a B-1/B-2 visa when presented 
with a passport, the process to obtain a BCC is nearly identical to the 
issuance of a visa, requiring a background check and interviews. Thus, 
we are considering whether or not this document can serve as a secure 
alternative to a passport for this population of travelers. Existing 
``trusted traveler'' programs are also being evaluated for expanded use 
at our land borders. These include the Secure Electronic Network for 
Travelers Rapid Inspection (SENTRI), Free and Secure Trade (FAST), and 
NEXUS programs. These programs facilitate the crossing of low-risk, 
frequent travelers and commercial truck drivers at the land borders, 
through exclusive, dedicated lanes. To enroll in these programs, 
travelers must provide proof of citizenship, a BCC or other visa, if 
required, as well as other identity documentation, such as a driver's 
license or ID card. An intensive background check against law 
enforcement databases and terrorist indices is required, and includes 
fingerprint checks and a personal interview with a CBP officer. To 
date, approximately 225,000 SENTRI, NEXUS, and FAST cards have been 
issued. Over the next few months, we expect to increase the number of 
locations where they can be used. These programs are implemented in 
partnership with the Governments of Canada and Mexico, and many 
citizens of these countries participate in the programs. In light of 
the extensive background checks and pre-vetting of enrollees in this 
program, we are considering whether the presentation of a trusted 
traveler card when traveling through the dedicated NEXUS, SENTRI, or 
FAST lanes can serve as evidence that a traveler's identity and 
citizenship has been confirmed.
    Additionally, there are several other documents that we are 
considering for use by specific groups, including military personnel 
traveling under orders, and merchant seamen. We are carefully 
researching both the legal requirements and the security of documents 
for these populations. DHS and the State Department are working closely 
to develop the requirements for WHTI in a way that can ensure that all 
persons who will require documents under this law can obtain them in 
the most cost-effective, convenient way, and that the documents will 
enable officers at ports of entry to quickly and efficiently verify the 
identity and citizenship of the traveler and safely and securely 
facilitate the rapid inspection of legitimate travelers. We are also 
aware of the need to make sure that travelers have these documents 
prior to the statutory deadline.
    As we discuss options for alternative documentation consistent with 
our statutory mandate, we are very aware and cognizant of not 
inadvertently creating a loophole that could be exploited to undermine 
the very reason we are implementing this initiative. In particular, 
proposals for specific documents for infrequent travelers must be 
evaluated carefully. These travelers often pose a greater security risk 
since we know so little about their background, travel history, 
itinerary, or purpose for travel. Since the requirements of the statute 
are for documents denoting identity and citizenship, it is potentially 
a great risk to consider any sort of ``on-the-spot'' issuance of 
identity and citizenship documents to these travelers. At the same 
time, we understand that there are significant travel, trade, and 
tourism concerns associated with spontaneous travel and we will 
continue to assess these issues.
    In addition to determining the most secure documentation under the 
WHTI, DHS, and DOS are also carefully examining the best type of 
technology available to enable CBP officers at the border to quickly 
and automatically validate a traveler's identity and citizenship. By 
choosing the right type of technology, we will be able to perform the 
much-needed queries of watch lists and databases, without creating 
backups and congestion at the land border. Standardized and automated 
travel documents will enable us to quickly, reliably, and accurately 
identify the person and their citizenship without having to review an 
assortment of documents and pursue a line of questioning to determine 
who the person is; therefore, facilitating the entry of travelers. In 
consultation with our privacy office, we are also carefully evaluating 
the associated privacy and data integrity issues of the different 
technologies to ensure that the traveler's personal information is 
accurate, secure, and protected. We are also working to ensure that 
there is a one-step, easy-to-use process for redress, in the event that 
a traveler believes that an error has been made in their 
identification.
    In a further effort to secure and facilitate cross-border travel, 
the United States is coordinating our efforts with Mexican and Canadian 
officials under the Security and Prosperity Partnership of North 
America (SPP). While our own decisions on implementation will be 
independent ones, we are concurrently discussing the standards we plan 
to adopt for lower-cost, secure proof of status and nationality 
documents. President Bush, Prime Minister Harper, and President Fox are 
committed to an ambitious security and prosperity agenda that will keep 
our borders closed to terrorists and open to trade. Security and 
economic prosperity are mutually reinforcing. We are committed to 
coordinating our own efforts with those underway in Canada to propagate 
our standards for nationality documents that can then be considered as 
alternatives under IRTPA that also take into account the realities of 
our shared borders.
    DHS and DOS are focused on an extensive outreach and education 
campaign to ensure that the documentary requirements of WHTI are 
publicized and well known to all travelers. While there are current 
procedures in place to address cases of unforeseen humanitarian or 
national interest emergencies, or incidents where U.S. citizens lose 
their passports while traveling abroad, to prevent delay at the land 
border ports of entry, we would encourage all U.S. citizens to obtain 
the appropriate documents before they travel.
    To ensure that affected stakeholders will be able to convey their 
concerns, we are using a robust rulemaking process that allows multiple 
opportunities to comment. In addition, we have attended over 30 
listening sessions and town hall meetings, and DHS representatives have 
met with 670 community leaders and stakeholders to discuss this 
initiative. We are committed to continuing to work with affected 
stakeholders to mitigate potentially adverse effects as this initiative 
gets underway.
    Given the magnitude of change this initiative will entail, DHS and 
DOS, in consultation with other Government agencies, have proposed a 
two-phased implementation plan for WHTI. This approach was outlined in 
the Advanced Notice of Proposed Rulemaking (ANPRM), which was published 
in the Federal Register on September 1, 2005, and had a 60-day public 
comment period. In the ANPRM, we envisioned air and sea implementation 
on December 31, 2006, and land implementation on December 31, 2007. In 
response to our advance notice, approximately 2,000 public sources 
submitted comments, including governors, mayors, police chiefs, tribal 
leaders, business leaders, and border community members. We are 
currently considering these comments. Both DHS and DOS recognize the 
unique issues that this initiative will raise, and we will remain 
flexible when working with affected entities and communities.
    We continue to work with Congress to address the important issues 
of border security and immigration reform. WHTI is an essential step in 
our layered approach to security at our borders. WHTI is an important 
step in protecting homeland security, and DHS and DOS will use our 
resources to implement this travel initiative by the deadline set forth 
in law. But it is just one step. We are making substantial progress in 
securing our borders every day; through our SBI initiative; through 
enhanced border security task forces; and in a host of other ways.
    Mr. Chairman and members of the subcommittee, I want to thank you 
for the opportunity to join you today. I would be pleased to respond to 
your questions.

    Senator Sununu. Thank you very much.
    Ms. Barrett, welcome.

    STATEMENT OF ANN BARRETT, MANAGING DIRECTOR OF PASSPORT 
         SERVICES, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Barrett. Thank you, Chairman Sununu, distinguished 
members of the committee and the community. I am pleased to 
have this opportunity to update you on the Department of 
State's efforts, in close cooperation with the Department of 
Homeland Security, to strengthen U.S. border security and 
facilitate international travel through the Western Hemisphere 
Travel Initiative, the new documentary standard for U.S. 
citizens and foreign nationals entering the United States from 
within the Western Hemisphere.
    This program implements section 7209 of the Intelligence 
Reform and Terrorism Prevention Act of 2004 which requires the 
Secretary of Homeland Security, in consultation with the 
Secretary of State, to develop and implement by January 1, 
2008, a plan to require U.S. citizens and non-U.S. citizens 
currently exempt from the passport requirement who travel 
within the Western Hemisphere to present a passport or other 
authorized documentation that denotes identity and citizenship 
when entering the United States.
    I am pleased to participate with my DHS colleague, Mr. 
Jacksta, at this hearing. Our joint appearance today symbolizes 
the effective partnership between State and DHS which is 
essential to the efficient implementation of WHTI.
    Both State and DHS recognize that perhaps the greatest 
challenge of WHTI is that it requires a change in travel 
behavior by millions of people who are used to traveling across 
our land borders with little or no documentation.
    We must implement this program in an intelligent fashion 
that facilitates compliance. We think we have such a plan, 
although it can always be improved through hearings like this 
and recommendations from the public through the rulemaking 
process.
    There are a number of advantages to phasing in the 
requirement in an orderly fashion in order to fully implement 
the new requirement by January 1, 2008.
    By beginning implementation in advance of that deadline, we 
will begin to accrue the security advantages as soon as 
possible, as well as benefit at an earlier stage from the 
travel facilitation envisioned by the Congress in crafting the 
legislation.
    Phased implementation will also give us the opportunity to 
reach out and inform the tens of millions of travelers who will 
be affected by the changes.
    Importantly, by spreading out over time a projected 
increase in the department's workload, we will be able to 
acquire and develop the resources needed to meet the increased 
demand for U.S. passports.
    Obviously, passport demand is a matter of intense interest 
at the Department of State. According to research that we--
State commissioned, about 6 million Americans who do not have a 
passport will need to be formally documented to travel to the 
Caribbean, Canada, or Mexico by air or sea. There is also a 
recurring new demand of about 1 million such travelers per 
year.
    For land border travel to Mexico or Canada, we have 
determined that 27 million Americans will need to be documented 
formally during the next 5 years.
    We already see that many Americans, especially those who 
travel by air or sea, are applying for passports. Passport 
demand has nearly doubled from fiscal year 2003 and the current 
year.
    In 2003, we adjudicated fewer than 7 million passports here 
in the United States. This year, fueled by increasing 
international travel, more naturalizations, more Americans 
using their passports as an identity document for reasons other 
than international travel, and anticipated implementation of 
WHTI, we will adjudicate about 13 million passport applications 
this year.
    We expect that number to reach at least 16 million in 2007 
and a sustained demand of 17 million or more in fiscal year 
2008 and beyond.
    To help meet the expected surge in demand for U.S. 
passports as Americans come into compliance with WHTI, we've 
established a multiyear effort to increase our passport 
adjudication and production capacity.
    With support from this committee in fiscal year 2005, we 
were able to secure approval to hire an additional 105 
Government employees to provide inherently governmental 
passport services, especially the critical determination that 
an individual is a U.S. citizen and qualifies for the passport 
that he or she is seeking; to meet the continuing demand, 130 
Government staff in 2006 and another 89 in 2007. We also have a 
large number of contract staff supporting those functions.
    We've also begun transitioning our Charleston Passport 
Center to an adjudication center that will be able to 
concentrate solely on adjudicating passports. They'll operate 
two shifts per day plus weekend work.
    We're expanding our New Orleans passport center, which has 
begun to recover from the devastation caused by Hurricane 
Katrina, to accommodate sufficient capacity in New Orleans of 
about 2\1/2\ million passports.
    At the same time, we're going to start up a passport 
production center that will serve as a book personalization 
center. We have solicited proposals from private vendors to 
supply and operate with Government oversight such a facility. 
This facility will personalize the passport, printing the data 
page and performing quality control functions, and mailing the 
passport to customers.
    We fully intend that this facility will be operational in 
the fourth quarter of calendar year 2006. This facility will 
also probably issue the bulk of our PASS cards.
    The U.S. passport's undoubtedly the premier identity and 
nationality document. One of the key objectives of the 
Department's Bureau of Consular Affairs is to ensure that 
passport services are provided in a secure, efficient, and 
courteous manner.
    In order to make applying for a passport as convenient as 
possible for American citizens, we have more than 7,500 sites 
at post offices, clerks of court, or other Government offices 
nationwide where they can apply for a passport.
    We have significantly expanded our network of passport 
acceptance agents in the last several years, and we continue to 
work to make the passport application process easily accessible 
to all Americans.
    Adults can also renew passports by mail by downloading the 
application and instructions from the Department's Internet 
site.
    During our many outreach events, we have literally spoken 
to dozens of groups representing the interests of those 
affected by WHTI. Coming out of those discussions and the 
public comments from our Advanced Notice of Proposed 
Rulemaking, it is a shared recognition by State and Department 
of Homeland Security that traditional book-style passports 
might not be the optimal solution to address frequent travel by 
those living and working in communities along the northern and 
southern borders.
    We plan to develop the passport card, the People, Access, 
Security, Service--PASS--card as a secure, biometric-enabled, 
credit-card-size identity document that carries the rights and 
privileges of a standard U.S. passport but which may only be 
used to travel across U.S. land borders.
    This passport will be considerably less expensive than a 
traditional book-style passport. We have the goal of reducing 
the cost by 50 percent or more from the $97 cost for someone 
making the first application for a traditional passport book. 
We are also holding discussions with our acceptance agents as--
about possibly lowering the cost of executing.
    We anticipate that the validity period will be the same as 
the passport book, 10 years for adults and 5 years for minors 
under the age of 16.
    We are drafting technical requirements for the card and 
hope to publish the request for proposals this summer. This 
will identify specifically the technology that is currently 
available to produce the card.
    Both Departments are working to determine the best 
technology to address security requirements, privacy concerns, 
and civil liberty issues such as data integrity in order to 
facilitate cross-border
travel.
    As envisioned, the passport card will serve as a platform 
for trusted traveler programs such as FAST, NEXUS, and SENTRI. 
Finally, it will be subject to its own rulemaking process later 
this year under the Department of State auspices. In that 
rulemaking we will also propose the relevant fee for the 
passport card.
    Both the Department of State and Homeland Security 
recognize that there are a host of issues that must be 
addressed thoroughly to implement the WHTI smoothly and 
successfully.
    A critical part of successful implementation is public 
participation in the regulatory process. With this in mind, we 
will soon solicit public comments through a Notice of Proposed 
Rulemaking and our plans to implement Phase I, the air and sea 
portion of WHTI.
    In addition, and in concert with our colleagues at DHS, we 
have engaged in numerous meetings with the public and with 
stakeholders, and we will continue to do so. I also want to 
assure you that both State and DHS are committed to extensive 
public outreach, including with your constituents, to explain 
WHTI and our plans to facilitate compliance in a manner fully 
consistent with the requirements of the regulatory process.
    If you have any such events planned, please let us know and 
we will be pleased to send a representative.
    In addition to explaining the new requirements to the 
American public, the Department of State has also engaged our 
hemispheric neighbors to make sure that they are aware of the 
requirements of WHTI and that they have adequate notice to take 
the necessary steps to comply with the new requirements without 
hindering the legitimate flow of people and goods between our 
nations.
    As we move forward, I must emphasize the Department's 
commitment to an open, transparent process with the full 
involvement of the American public and affected groups.
    We, in concert with our colleagues at DHS, have engaged in 
numerous meetings with the public; and we will continue to do 
so. We are committed to making sure that concerns and interests 
are explored thoroughly.
    At this time, I am happy to answer any questions you might 
have.
    [The prepared statement of Ms. Barrett follows:]

   Prepared Statement of Ann Barrett, Managing Director of Passport 
             Services, Department of State, Washington, DC

    Thank you for providing me this opportunity to appear before the 
committee to update you on the Department of State's efforts, in close 
cooperation with the Department of Homeland Security, to strengthen 
U.S. border security and facilitate international travel through the 
Western Hemisphere Travel Initiative (WHTI).
    I am pleased to participate with Bob Jacksta of the Department of 
Homeland Security at this hearing. Our joint appearance symbolizes the 
effective partnership between State and DHS, which is essential to the 
efficient implementation of WHTI. As Mr. Jacksta has focused on the 
policy rationale for WHTI, I would like to focus on the question of 
``how'' this challenging program will be implemented. This division of 
responsibilities recognizes the authority of the Secretary of State to 
adjudicate nationality. The State Department will issue most of the 
travel and identity documents that will allow Americans to comply 
easily and at relatively low cost with the requirements of WHTI.
    Both State and DHS recognize that perhaps the greatest challenge of 
WHTI is that it requires a change in travel behavior by the millions of 
people who are used to traveling across our land borders with little or 
no documentation. We must implement this program in an intelligent 
fashion that facilitates compliance. We think we have a sound plan, 
although it can always be improved through hearings like this and 
recommendations from the public through the rulemaking process.
    Consistent with our commitment to improve the program, we have 
divided the schedule into two phases:

  <bullet> As of 1 January 2007, for travelers returning by air or sea 
        from Canada, Mexico, or the Caribbean; (I also wish to assure 
        the committee that we are looking closely at this date in light 
        of concerns raised by the travel industry that the current 
        deadline of 12/31/2006 falls in the middle of the peak holiday 
        travel season. That may be reason for a short delay in 
        implementation of the Phase 1 deadline.)
  <bullet> As of 1 January 2008, for travelers returning across United 
        States land borders with Canada or Mexico.

    We believe this schedule balances appropriately the challenges of 
implementation while securing quickly some of the significant security 
and travel facilitation advantages offered by WHTI.
    Determining the number of persons affected by WHTI is, obviously, a 
matter of intense interest to the Department of State. According to 
research which State commissioned, about 6 million Americans who do not 
have a passport will require formal documents to travel to the 
Caribbean, Canada, or Mexico by air or sea; there is also a recurring 
new demand of about 1 million such travelers per year. For cross-land 
border travel to Mexico or Canada, we have determined that 
approximately 27 million Americans may need formal documents to travel 
during the next 5 years.
    Many Americans are already applying for passports to come into 
compliance with this program. Passport demand has nearly doubled 
between fiscal year 2003 and the current year. In fiscal year 2003, we 
adjudicated fewer than 7 million passports here in the United States. 
This year, we will adjudicate about 13 million passport applications, 
fueled by factors such as:

  <bullet> Increasing international travel;
  <bullet> More naturalizations;
  <bullet> Americans using their passport as an identity document for 
        reasons other than international travel;
  <bullet> A growing percentage of passport holders renewing their 
        passport when it is about to expire; and
  <bullet> The Western Hemisphere Travel Initiative.

    We expect that the number of applications for passports in the 
United States will reach about 16 million in fiscal year 2007 and 
perhaps a sustained demand of 17 million or more in fiscal year 2008 
and beyond. I would also like to note that even though ``only'' 68 
million Americans have passports, the United States issues more 
passports than any other nation and, in fact, processes more passport 
applications than No. 2 (the United Kingdom) and No. 3 (Germany) 
combined.
    Of course, we still have much work to do to help Americans comply 
with the legislation that WHTI is implementing. The Department of State 
has a multi-year effort underway to increase our passport adjudication 
and production capacity. With support from this committee in fiscal 
year 2005, we were able to secure approval to hire an additional 105 
Government employees to provide ``inherently governmental'' passport 
services, especially the critical determination that an individual is a 
U.S. citizen and qualifies for the passport he or she is seeking.
    More recently, and in response to surging demand for passports, we 
received approval to hire an additional 130 Government personnel to 
adjudicate passport applications. And, let me assure you that the 
Department has also made commensurate increases in private sector staff 
at our passport facilities. This contract staff handles many of the 
support and production aspects of the U.S. passport program. Without 
their help and our effective public/private partnership, we would not 
be able to deal effectively with surging demand for U.S. passports.
    The U.S. passport is undoubtedly the world's premiere identity and 
nationality document. One of the key objectives of the Department's 
Bureau of Consular Affairs is to ensure that passport services are 
provided in a secure, efficient, and courteous manner. At the same 
time, we need to make our application process as convenient as possible 
at our 17 passport agencies around the United States. Currently, there 
are more than 7,500 sites at post offices, clerks of court, or other 
Government offices nationwide where citizens can apply for a passport. 
We have significantly expanded our network of passport acceptance 
agents in the last several years and we continue to work with our 
acceptance agent partners to make the passport application process 
easily accessible to all Americans.
    Based on comments expressed during our outreach efforts and the 
publication of our joint advanced notice of proposed rulemaking, both 
State and DHS recognize that there are many circumstances where 
obtaining a book-style U.S. passport is not the optimal solution for 
travel--particularly in communities along the northern and southern 
borders. As part of their joint vision, Secure Borders, Open Doors in 
the Information Age, Secretaries Rice and Chertoff announced in January 
the development of a passport card, which will be a secure, credit-
card-sized citizenship and identity document that carries the rights 
and privileges of a standard U.S. passport, but which may only be used 
for travel across U.S. land borders. The passport card will be 
adjudicated and issued by the Department of State to the exact same 
standards as the traditional, book-style passport. The passport card 
will be produced as part of a system of Border Management travel 
documents called People, Access, Security, Service (PASS) and will 
serve as a platform for the Department of Homeland Security's 
Registered Traveler Program.
    This passport card will be considerably less expensive than a 
traditional, book-style passport. The State Department has a goal of 
reducing the cost as much as possible below the $97.00 cost for someone 
making their first application for the traditional passport book. We 
anticipate that the validity period will be the same as the passport 
book, 10 years for adults, and 5 years for minors under age 16.
    State and DHS are working together to develop the technical 
requirements for the card. State plans to publish a request for 
proposals associated with this card. Both Departments are working to 
determine the best technology to address security requirements, privacy 
concerns, and civil liberties issues such as data integrity and prompt 
redress procedures, in order to facilitate cross-border travel. 
Harnessing cutting edge technology as part of the WHTI solution will 
help us to bring the land borders into the 21st century.
    Finally, this card will be subject to its own rulemaking process 
later this year under Department of State auspices. In that rulemaking, 
we will also propose the relevant fees for the passport card.
    Both the Department of State and the Department of Homeland 
Security recognize that there are a host of issues that must be 
addressed thoroughly to implement the WHTI smoothly and successfully. A 
critical part of successful implementation is public participation in 
the regulatory process. With this in mind, we will continue to solicit 
public comments and provide the public an opportunity not just to 
comment upon any rules, but also to offer concrete suggestions as to 
how this process can be improved. In addition and in concert with our 
colleagues at DHS, we have engaged in numerous meetings with the public 
and with stakeholders, and we will continue to do so. I also want to 
assure you that both State and DHS are committed to extensive public 
outreach, including with your constituents, to explain WHTI and our 
plans to facilitate compliance, in a manner fully consistent with the 
requirements of the regulatory process. If you have any such events 
planned, please let us know and we will be pleased to send a 
representative.
    The Department of State is also engaged with our hemispheric 
neighbors to make sure that they are aware of the requirements of the 
WHTI. We want to ensure that they comply with WHTI without hindering 
the legitimate flow of people and goods between our nations.
    In conclusion, I want to take this opportunity to thank the 
Congress, in general, and this committee, in particular, for your 
support for the implementation of WHTI. Of particular note was passage 
last December of the ``Passport Services Enhancement Act of 2005'' that 
provides the Department of State with critical fee retention authority 
but does so in a creative fashion that does not raise overall fees to a 
passport applicant. Thank you for providing the Department with this 
important tool.
    At this time, I am happy to answer any questions you might have.

    Senator Sununu. Thank you both very much.
    Ms. Barrett, I'll pick up on the point you made at the end 
of your testimony--the one about the need for an open, 
transparent process and that does require a formal publication 
of proposals, collection of responses, and comments from the 
public.
    Yet the implementation timeline for the air and sea portion 
is just 6 months away, so it seems as if there's a great deal 
of work left to be done; and I'd like to know how confident you 
are and how confident the State Department is that there is 
sufficient time that remains to have a smooth implementation of 
the initial part of the program.
    Ms. Barrett. Well, we do have a--we finished the bulk of 
the work I believe on preparing the Notice of Proposed 
Rulemaking and do hope to move it forward very shortly.
    But as part of the Notice of Proposed Rulemaking process, 
we are also open to what the public is going to suggest.
    We fully believe in the phased implementation approach for 
the reasons I outlined and will work with any comments that the 
public does have, and we will definitely try to implement the 
phases as we have.
    Senator Sununu. But it's expected that all of the air and 
seaports implement the program on December 31. Their 
implementation won't be phased, correct?
    Ms. Barrett. Well, it depends on when we can issue the 
proposed rules. That's what we're proposing, but we're also 
open to--we're flexible in that in terms of what comes out of 
the comments when we publish the Notice of Proposed Rulemaking.
    Senator Sununu. How many--what percentage of people in the 
country have passports today?
    Ms. Barrett. We estimate that approximately 25 percent of 
the U.S. population have passports. We think there's about 68 
million valid passports in circulation right now.
    Senator Sununu. It would seem to indicate that three-
quarters of the country are in need of a real education about 
what the impact of this program is going to be. What is State 
doing to begin that education process?
    Ms. Barrett. We have had a very robust outreach program 
going on for well over a year now.
    We've reached out to local communities, we've done a lot of 
speaking to border trade alliances on the border, we've been 
open to any community town hall meetings, we have published a 
lot of information on our Web site, we've issued a lot of press 
releases about this new legislation, and we have tried to--even 
through our acceptance facility like the post offices--we have 
reached out to the local public to tell people that this is a 
requirement of the law that's going to be implemented by 
January 1, 2008; and we will continue to have that robust 
outreach program in conjunction with our colleagues at Homeland 
Security.
    Senator Sununu. You talked about 27 million new applicants 
expected over the next 5 years. Given that three-quarters of 
Americans don't have a passport, it would seem to me that that 
number's quite low.
    Ms. Barrett. Well, we did a study that we're basing on 
those statistics.
    The cost could be a little low, but I think that takes into 
account that some citizens will not get passports or don't 
intend--we have a beautiful big country of our own and they 
don't intend to travel internationally.
    The study we did was based on people who were intending to 
travel or thinking that they were intending to travel. So, like 
any statistical study, I'm sure there's room for error.
    Senator Sununu. Even at that low of an estimate, though, 
that's roughly a 50 percent increase in the workload; and it's 
hard to imagine that wouldn't carry with it considerable delays 
in processing times. Has that concern been addressed?
    Ms. Barrett. Yes, I believe, as I stated, that we have 
addressed our capacity concerns with help from the Congress in 
identifying sources of revenue.
    We are expanding many more of our offices. We're currently 
working several shifts at many of our passport centers, we're 
working a lot of overtime; but with the additional positions 
that have been approved by Congress and the funding source, we 
believe we'll be able to meet that demand in a reasonable 
amount of time.
    Senator Sununu. Has the time to process a passport gone up 
or gone down in the last year?
    Ms. Barrett. It's pretty much remained the same. It's 
between 4 to 6 weeks turnaround time.
    I believe that this year we probably will experience some 
lengthier delays at certain times of the year, but we have 
managed to keep the turnaround time pretty much the same as its 
been.
    Senator Sununu. Mr. Jacksta, 2 percent of travelers account 
for roughly 48 percent of cross-border trips. I think that 
statistic may have been in your testimony.
    Is there any effort to develop or design programs that are 
tailored to that small portion of the population that's 
responsible for that large portion of trips?
    Mr. Jacksta. Yes, Senator. One of the things that is 
important for CBP, DHS is that we now recognize that there are 
a number of travelers that come across our border, both a 
traveler who works in the business, truckers come across on a 
regular basis, as well as individuals that work in the United 
States or may work in Canada and they go back and forth.
    As we're developing the notice of rule, we're taking a look 
at those travel programs. We have on the northern border 
something called NEXUS, on the southern border it's called 
SENTRI, and for the commercial industry it's called FAST; and 
right now we're in the area of about 225,000 travelers that 
have been identified and have gone through the CBP vetting 
process and been issued a card that allows them to go to a lane 
and based on the fact that they are involved in the program, 
allows them to be expedited through the process.
    Senator Sununu. Is that eligible to anyone or only to 
commercial travelers?
    Mr. Jacksta. It's eligible for commercial travelers as well 
as for the regular traveler who goes back and forth, so it's 
open for any type of individual who travels from Canada into 
the United States; and what is also important is that it's a 
joint effort between the Canadians and the United States where 
if you get a NEXUS card, you're able to come into the United 
States in an expedited fashion as well as when you go to return 
to Canada you get an expedited clearance in one of their NEXUS 
lanes.
    So we think that, as we move forward, we'd like to expand 
those trusted travel programs because they help us. What they 
do is they identify individuals, the citizenship. The actual 
application process allows for our office to quickly determine 
whether the person is properly enrolled, has proper 
documentation, that allows us to devote more of our staff to 
more important issues and spending more time on that.
    I had another comment, sir, just on the issue of outreach. 
As you know, the Notice of Proposed Rulemaking takes the first 
effort to try to address the issue of the air and sea 
environment; and we have been working very closely, as Ann just 
mentioned, with all the various organizations to make sure that 
they at least know that there's a possibility that starting in 
January there will be a requirement for a passport.
    The same with the cruise industry. We've had many various 
outreach efforts to various cruise industries, meetings as well 
as the ICLC, the International Cruise Line Committee, and we're 
making every effort for them to know.
    One of the things that we have noticed is that--and I can't 
give you the exact--a large number of travelers today in the 
air environment as well as in the sea environment are carrying 
passports, so that will make it a little bit easier to address 
the issue of January 1.
    That doesn't take away the real challenges that we will 
face when we go to the land border.
    Senator Sununu. In the United States we obviously don't 
require people to show identification if they're traveling from 
State to State and that's because we have implemented what we 
feel to be uniform security customs procedures at all of our 
ports of entry.
    Why not simply work with Canada to ensure the uniformity of 
those border security customs procedures, sharing information 
technology and procedures with Canada at ports of entry. 
Wouldn't that eliminate the need for demonstration of 
identification at the shared United States-Canadian border in 
the same way that we have no requirement among the States?
    Mr. Jacksta. Well, I think what is important to note is 
that we are working very carefully with the Canadians under the 
SPB initiative, working with them for our shared border 
meetings where we're trying to identify the documents that 
would be acceptable.
    Once again it's only a recommendation. We have those 
discussions and once DOS and Department of--DHS make a 
decision, we have to take a look and see what type of documents 
would be acceptable to that process.
    What is important is that we look at the various 
documentations that we will consider. We want to make sure that 
they're secure documents, that they're something readable that 
allows for our offices to quickly swipe and be able to run 
names against databases.
    We want to have the capabilities to have a biometric or 
digitized photo on any type of identification card; and what's 
also important is that we want to be able to--with these cards, 
be able to determine who the traveler is before the person 
actually gets to the primary CBP station.
    So we're working with the Canadians to ensure that whatever 
possibilities are out there that they at least be considered 
when the final move goes forward.
    Senator Sununu. No matter what is incorporated, it is 
always a potential threat and so no matter the identification, 
the issue or opportunity for document validation and 
certification becomes extremely important and that process of 
document validation certainly can be done today, off the shelf. 
There are many companies that provide validation systems and 
technology that with a very high degree of reliability can 
provide validation of a driver's license, a birth certificate, 
and many existing forms of documentation.
    Why not focus on that validation technology and the 
validation process of existing documentation as opposed to 
creating yet another form of documentation or adding another--a 
new requirement for additional documentation at the border?
    Mr. Jacksta. Well, I think one of the things--one of the 
important issues is that we want to make sure that 
documentation that we're going to be utilizing to let people in 
the United States is documentation that we feel confident is a 
secure document, that it has the proper security procedures for 
the issuance of the card, adjudication of whether the person's 
a citizen, and whether the identification of the person is 
clear.
    Once we establish that, we want to make sure that the type 
of documentation that we use is consistent across the board; 
and to address the issue of January of 2008, right now we think 
the best way to go forward is either with our--looking at 
passports, PASS card, SENTRI cards, BCC cards--which are issued 
by the U.S. Government--and other types of documentation that 
are already issued.
    What we want to do is to make sure we have consistent 
standards as we move forward and move out. So right now, we're 
taking a look at what's available--what can be utilized today.
    I think we will continue to do that in the future to see 
how can we bring that technology, how we can bring those 
security features to other documents that may then be accepted 
by the Secretary of State and Secretary of DHS.
    Senator Sununu. DHS seems to have dismissed the idea of day 
passes. What's the concern with day passes and given that you 
seem to feel that new document requirements that you impose 
reduce the likelihood of fraud, why couldn't you incorporate 
the same concepts in a day pass?
    Mr. Jacksta. I think one of the things that--that's one of 
the most difficult issues that we're facing is the issue of a 
day pass and how do we ensure that the trade continues and 
people still go back and forth across the border.
    However, we also feel very strongly that in the Intell 
Reform Act it clearly states that we must identify--use the 
capabilities to have the person identify who they are as well 
as adjudicate their citizenship.
    We think that by issuing people day passes is actually 
defeating what the whole intent of the Intell Reform Act was. 
We would--in the case of day passes where people can just show 
up at the border, present some type of documentation, then be 
allowed to come across basically keeps us at the same level 
that we're at today.
    We feel very strongly that we need to have consistent 
documentation, we need to validate that the person is a citizen 
before they're coming to the border, not do it at the time that 
they arrive.
    However, we recognize that there are certain cases where we 
already have procedures in place for emergencies, we have cases 
where there's special crises where people have to come back 
from say a catastrophe overseas on an emergency basis but we 
feel very strongly that we need to ensure that as we move 
forward with the Department of State that we allow the public 
to get a document very quickly in a very low-cost manner so 
that they can go back and forth to the United States.
    It will change. What we're looking at is going to change 
the way that travelers come across the land borders. We 
recognize that, but we think the benefits of securing our 
borders and national security is important also.
    Senator Sununu. I have one last question before we move on 
to the next panel.
    And that is, through this program and the testimony you've 
provided, the implication is that if we can verify citizenship, 
that is, if someone's a citizen of the United States or Canada, 
I suppose, and/or verify their immigration status, someone 
could be a legal permanent resident or have other legal status 
as an alien in the United States, that somehow that 
certification provides protection against a terrorist threat; 
that is, that no one who's a citizen or who has legal immigrant 
status would be a terrorist threat to either the United States 
or Canada.
    Doesn't that potentially create a false sense of--either a 
false sense of security because the assumption is that someone 
with such status isn't a threat or a pathway to conduct 
terrorist acts and that is, once you're able to demonstrate 
citizenship in either one of these countries perfectly legally 
or gain permanent legal status or other immigration status 
legally, then you are given free movement and that's where 
we're focusing our resources.
    What concerns about the false sense of security or the 
pathway to terrorist acts do you share?
    Mr. Jacksta. I think, sir, what we should be looking at is 
a layered approach. The issuance of the secured documents is 
only one part of the process. It identifies the person and the 
citizenship. We need to ensure that.
    But, once again, this document is only a document that 
allows a person to present themselves at the border for 
clearance. On our layered approach we use--and you mentioned 
earlier about the delays up in Vermont--we use our systems to 
query individuals to make sure that they are not in any of our 
law enforcement databases.
    So our intelligence is important. We train our officers to 
make sure that they can ask the right questions and look at 
behavior analysis to determine whether someone might be lying 
or deceiving them; and then we basically just check and ask 
questions.
    And therefore the documents are an important part, but 
they're only part of the layered approach by the U.S. 
Government to ensure people that get into the United States are 
people that are allowed to get in.
    And then of course we have the capabilities to track them 
if necessary through our automated systems with the immigration 
authority.
    So I'd like to take a look at it not as a document, just as 
one part of our layered approach.
    Senator Sununu. Thank you both very much. I'll now call up 
Senator Slade Gorton, a member of the 9/11 Commission.
    As Senator Gorton knows, we Senators are used to very long, 
formal, flowery introductions about all the great things we 
have done in public service and in our work in the Senate and 
on committees; but in this case many of those accolades are 
true in the time and effort that Senator Gorton has made in 
contributing in very direct, substantive ways to the 9/11 
Commission, but then also continuing to work--not just working 
to file a report but continuing to work on these issues, to 
talk to people, communicate with people around the entire 
country about what their findings were, how they might be 
implemented, and how best to strike a balance between a lot of 
the expectations we have as Americans about our ability to move 
and travel and interact with people here in the country and 
outside, but also our need for security.
    So we appreciate his work on the commission and very much 
appreciate him being here today. He is from Washington State 
which is a long way from New Hampshire, but I think has--shares 
a lot of the common interests about our relationship with 
Canada.
    Welcome, Senator.

STATEMENT OF HON. THOMAS SLADE GORTON III, FORMER U.S. SENATOR, 
FORMER COMMISSIONER OF THE 9/11 COMMISSION OF COUNSEL, PRESTON 
                 GATES & ELLIS LLP, SEATTLE, WA

    Senator Gorton. Thank you, Mr. Chairman. Since I've already 
submitted a written statement and I know that you've gone over 
it, I don't feel any compunction simply to read it to you at 
this point and would rather talk informally about a number of 
these matters.
    As you said in your kind introduction, I served in the 
United States Senate from Washington for three terms and on the 
9/11 Commission.
    I also wear the hat today as a representative of Business 
for Economic Security, Tourism and Trade, a coalition from all 
across the country concerned about the Western Hemisphere 
Travel Initiative and especially as it relates to United 
States/Canada travel.
    Let's go back to the 9/11 Commission. We made three 
statements that are relevant to the work that you're doing here 
today. We began by recommending that Americans should not be 
exempt from carrying biometric passports or, and I quote, 
``otherwise enabling their identities to be securely verified 
when they enter the United States, nor should Canadians or 
Mexicans,'' end quote. That's the first.
    We went on to say, however, quote, ``our border screening 
system should check people efficiently and welcome friends. 
Admitting large numbers of students, scholars, business people, 
and tourists fuels our economy, cultural vitality, and 
political reach,'' end quote.
    And then we went on further to say, and I quote, ``that 
programs to speed known travelers should be a higher priority 
and the daily commuters should not be subject to the same 
measures as first-time travelers.''
    Now, Mr. Chairman, when you get right down to it, there's a 
certain tension among those three requirements because they 
speak both to security, you know, the threat that was evidenced 
by the attacks on 9/11, and to the fact that this ought to be 
an open country to all and that particularly daily commuters, 
which effectively means Canada and to a certain extent Mexico, 
should have different requirements entirely.
    Now, in a sense, the two previous witnesses--of course 
their departments aren't tasked with carrying out the 
recommendations of the 9/11 Commission. They're tasked with 
carrying out the requirements that the Congress wrote into the 
statute that resulted from the work of the 9/11 Commission.
    And my reading of that statute is somewhat tighter because 
it calls for a plan to require a passport or other document 
deemed by the Secretary of Homeland Security to be sufficient 
to denote identity and the citizenship for all travel in the 
United States.
    They're tied by that, not the broader recommendations that 
the 9/11 Commission had made and, you know, their testimony 
obviously has to be considered in that regard.
    But we start from the fact that with Canada, we've had an 
open border for more than 200 years. People are accustomed to 
it. I think on both sides of the border they pretty much 
believe that easy cross-border travel is a natural--a national 
right.
    The Zogby company took a poll just in February of this 
year, and they found, among other things, that 40 percent of 
the people said they didn't have to present any identification 
at all, you know, when they crossed the border, not even a 
current driver's license and the like, and they're, by a great 
majority, unwilling to think that they ought to have to get a 
passport or even pay half as much for this so-called PASS card. 
You know, they just don't buy that idea; and for outreach, not 
20 percent of the people of the United States or of Canada has 
yet recognized that there are going to be stiffer requirements 
at some time in the future.
    So the problem of public perception and the problem of 
allowing this cross-border travel to take place with relative 
ease are huge problems for the two departments and for the 
Congress itself.
    And that's why Congress has already delayed these effective 
dates once and, as you pointed out in your opening statement, 
just last Thursday or Friday, the Senate version of the 
immigration bill made a further extension at least as far as 
cross-border land travel is concerned.
    You've recognized that--you know, the very real difficulty, 
both administratively and from a point of view of our 
relationships with Canada of adopting something without any 
precedent in the history of relationships between the United 
States and Canada.
    We have that huge border crossing at Detroit, Michigan, and 
at Windsor, Ontario, major urban areas. I think the second-
most-traveled one is in the State of Washington, in between 
Seattle and Vancouver, British Columbia, and of course through 
the midwest and through these eastern States as well.
    And so the challenge is how do we provide both for our 
national security and for the historic and appropriate ease of 
travel between the United States and Canada?
    It's vitally important to remember, as I point out in my 
testimony, that not one of the 9/11 terrorists came into the 
United States in a sense illegally. Every one of them had a 
passport and every one of those passports was stamped with a 
U.S. visa that at least on their face seemed legitimate. We 
found after a long study that a number of them shouldn't have 
gotten those visas, there were questions about some of the 
documents; but they were--you know, they were face sheet valid 
documents.
    We also had one potential terrorist before 9/11 come in 
from Canada to the United States by ferry to Port Angeles, 
Washington, whose documents were perfectly okay. He got caught 
by a very smart agent simply because of his personal 
nervousness and action on his way to try to blow up the airport 
in Los Angeles. So pure documentation is of course not the 
answer.
    And because we have this border that's, if you include 
Canada and Alaska, 5,500 miles long with many miles between 
border entry points, someone determined to get into the United 
States from Canada can do so, you know, without having to cross 
through any one of these border stations. And I don't think 
that there's any serious proposal that we begin to fence or 
wall, you know, our border, you know, with Canada at all.
    So the challenge, it seems to me, that we have as a 
government is how do you properly balance these two sets of 
considerations, security and the close relationships between 
Americans and Canadians?
    Day pass for people who come across very, very frequently 
is important; but almost equally important is just the fact 
that you ought to be able to call across the border to a friend 
and ask them for dinner or for the weekend in one direction or 
another without having to wait even for 6 weeks or 8 weeks for 
a passport or for some particular kind of--you know, kind of 
card. So these are the challenges.
    You've made, you know, a fascinating suggestion. Why don't 
we in effect expand the borders the way that Europe did and say 
if you get validly into Canada, you can automatically come to 
the United States; if you get validly into the United States, 
you can fairly automatically go to Canada.
    From a personal point of view, I think that is an excellent 
suggestion; but it has huge difficulties. Canada has very 
different requirements--quite different requirements for entry 
into Canada from some foreign countries than we do and whether 
you could ever persuade the Canadians to adopt regulations that 
are essentially identical to those of the United States is an 
open question.
    But it certainly--if we could accomplish that goal, it 
would solve 80 or 90 percent of the problems and challenges 
that we face.
    And there probably ought to be a higher priority for people 
on both sides of the border to see--to explore at least as to 
whether or not that kind of semi-European solution would be 
possible for our two countries.
    And in the meantime, Congress may or may not pass an 
immigration bill, may or may not delay this date; but certainly 
it shows a recognition on your part and on the Members of 
Congress on both sides' part that the requirements they've set 
up and the deadline dates are too tight.
    We haven't had a terrorist attack here in the United States 
since 9/11. We haven't had obviously a serious breach of the 
United States/Canada border in that period of time, but that 
doesn't guarantee that we won't.
    One of the conclusions that we made--one of the most 
important conclusions that we made in the 9/11 Commission is 
that this struggle, this war that has been declared on the 
United States and on the West by militant Islam, isn't going to 
be over in a 4- or 5-year period, it's going to last for 
decades if not for generations; and there's no way that we can 
promise that there won't be another terrorist attack, and we 
ought to do all we can to try to prevent that type of attack, 
but we should not give up this wonderful and easy relationship, 
particularly between the United States and Canada, by having 
only one goal rather than to try to solve multiple goals.
    I'm sorry, as I've said, the rest of my testimony you 
already have; but I thought it would be better to supplement 
that than just to read it to you.
    [The prepared statement of Senator Gorton follows:]

    Prepared Statement of Hon. Thomas Slade Gorton III, Former U.S. 
Senator, Former Commissioner on the 9/11 Commission of Counsel, Preston 
                    Gates and Ellis LLP, Seattle, WA

    In July 2004, the 9/11 Commission recommended that the U.S. Federal 
Government take a series of steps to protect the Nation against future 
terrorist attacks. With respect to international travel, the report 
states that Americans should not be exempt from carrying biometric 
passports or ``otherwise enabling their identities to be securely 
verified when they enter the United States; nor should Canadians or 
Mexicans.''
    The 9/11 Commission also stated that ``Our border screening system 
should check people efficiently and welcome friends. Admitting large 
numbers of students, scholars, businesspeople, and tourists fuels our 
economy, cultural vitality, and political reach.''
    In addition, the commission pointed out that ``programs to speed 
known travelers should be a higher priority'' and that the ``daily 
commuter should not be subject to the same measures as first-time 
travelers''.
    Just a few months later, Congress passed the Western Hemisphere 
Travel Initiative, calling on the Department of Homeland Security and 
Department of State to ``develop and implement a plan . . . to require 
a passport or other document, or combination of documents, deemed by 
the Secretary of Homeland Security to be sufficient to denote identity 
and citizenship, for all travel into the United States . . .''
    The regulations proposed by the Department of Homeland Security 
meet the first of the 9/11 Commissions recommendations, but not the 
second or the third.
    Mr. Chairman, I am Slade Gorton, a United States Senator from 
Washington from 1981-87 and 1989-2001. I was thereafter a member of the 
9/11 Commission and subscribe to all of its recommendations. Here today 
I also represent Business for Economic Security, Tourism and Trade, a 
coalition concerned about the Western Hemisphere Travel Initiative, 
especially with respect to its effect on United States-Canada travel.
    The 9/11 terrorist attacks awakened us to our vulnerability to 
terrorism, and the need to protect our people and our infrastructure 
from terrorists attacks, as terrorism will last for the foreseeable 
future. Today's system simply does not meet that need. According to a 
February 2006 Zogby International poll conducted among likely voters 
living along the United States/Canada border, only 59 percent of 
Canadians and 58 percent of Americans have been asked even for their 
driver's license or photo ID when crossing the border, meaning that an 
estimated 40 percent of the time even this basic document is not 
requested. Meanwhile, fewer than 40 percent of Canadians and 20 percent 
of Americans have been asked to show their birth certificates.
    In spite of this continuing informality, there have been no 
successful terrorist attacks in either country since 9/11, but the 
system is nevertheless clearly inadequate. What is the optimal 
solution?
    In April 2005, when Department of Homeland Security and Department 
of State suggested that a passport might be the only option for getting 
back and forth across the border, there was a huge public outcry, and 
rightly so. The United States and Canada have enjoyed hundreds of years 
of harmonious border relations, longer than any other in the world. 
That border is the conduit for $1.2 billion in trade every day and 
supports 5.2 million jobs. Going from never having requested a formal 
border-crossing document to a passport-only option would be disastrous. 
The president agreed, sending DHS and State back to the drawing board.
    Now the Departments are moving forward with the People Access 
Security and Service Card, or PASS Card. That card requires all of the 
same information and processing time as a passport but is approximately 
half the cost, fits in a wallet and works only at land crossings. To 
determine whether this option is a feasible alternative, one might well 
ask why only 23 percent of Americans carry a passport today. Again, the 
Zogby International survey revealed that cost is an issue. Only 30 
percent of Americans are willing to spend even $25 or less on a land-
border crossing card; 49 percent want the document for free. Even at 
half the cost of a passport, nearly 80 percent of likely voters along 
the northern border are not inclined to obtain the document, and even 
fewer are inclined to do so for everyone in their families.
    While Canadians are more willing to pay for such a passport 
alternative, their federal government has indicated no plans to 
reciprocate the PASS Card. What this means is that the U.S. Federal 
Government is investing millions of dollars in creating a document that 
only a fraction of Americans are willing to buy, while Canadians will 
have no choice but to buy a passport if they wish to visit the United 
States. Though the proposed regulation lives up to the call for 
enhanced border security recommended by the 9/11 report, it does not 
take into account the justified expectation of both Americans and 
Canadians that the historic policy of easy access to one another's 
countries is too dear to all of us to be abandoned.
    Ultimately, both sides of the border stand to lose by current plans 
to implement the Western Hemisphere Travel Initiative. Canadian 
visitors spend $10+ billion in the states annually. And not only border 
communities stand to lose--States like Florida, Nevada, and California 
are most Canadians' greatest spending destinations, and most Canadians 
drive to these locations--passing through northern land border 
crossings nearly 75 percent of the time.
    Is the sacrifice worth it if it means greater border security? Many 
say, ``yes,'' but current proposed options both go too far and not far 
enough. The United States/Canada border is 4,000 miles long, 5,500 
miles counting Alaska. Along the way there are an estimated 140 formal 
crossing sites, many in remote areas. Anyone looking to hurt the United 
States can still find a way to get here without passing through a 
formal crossing area at all. And let's not forget that each of the 9/11 
terrorists possessed a passport, as did yet another would-be terrorist, 
who crossed into the City of Port Angeles in my State of Washington, 
hoping to blow up the L.A. Airport. It was not failure to have proper 
documentation that arrested that individual, but an alert border agent 
who noticed the suspect appeared nervous.
    Greater emphasis must be placed on securing the Western Hemisphere 
perimeter and weeding out troublemakers within. Steps to improve 
intergovernmental information sharing, resource allocation, and general 
collaboration are all positive in this regard. But we cannot afford to 
inconvenience and deter innocent visitors to our country because we 
suffer from a case of security mono-vision.
    Recent Congressional pushes to extend the Western Hemisphere Travel 
Initiative deadline back make sense, but only if combined with a 
mandate to consider other more feasible alternatives and to explore 
these alternatives with our neighbors, and as long as measures to 
secure our Nation continue to move forward.
    This brings me to another 9/11 Commission recommendation--that 
Secure Identification should begin in the United States. The Federal 
Government has set standards for the issuance of birth certificates and 
sources of identification such as drivers licenses. Fraud in 
identification documents is no longer just a problem of theft. At many 
vulnerable points, sources of identification are the last opportunity 
to ensure that people are who they say they are and to check 
effectively whether they may represent a threat of terrorism.
    I know that many in New Hampshire and elsewhere have opposed the 
security-enhanced drivers licenses that will take effect under the 
REAL-ID Act, but this new law does come with benefits. First, it 
creates a more secure foundation document for all of our Nation's 
security cards, whether the passport, the PASS Card, or other options. 
Second, it allows us to consider how, on an individual, voluntary 
basis, drivers' licenses themselves can be combined with other 
requirements, like the Western Hemisphere Travel Initiative, for 
purposes like border crossing. Listening to, and working closely with 
States to realize the potential benefits of REAL-ID will greatly aid in 
adopting practical and effective policies.
    Whatever, the ultimate answer is to securing cross-border travel, 
we must assure that people know in advance what they need to cross so 
that they do not come to the border unprepared. Currently, 87 percent 
of Americans and 83 percent of Canadians have little-to-no idea about 
new documentation requirements (again, according to the Zogby Poll). 
Processing individuals who come to the border unprepared at secondary 
facilities--whether for a day pass or any other option--is infeasible 
given space limitations and the extremely high volumes at many major 
crossing areas. Moreover, possible wait-times and hassle deter 
visitors, who want nothing more than to be with friends and family and 
who, in the process, do great good for our national economy.
    The 9/11 Commission was charged with making recommendations to 
secure our Nation's citizens, but we did not do so in a vacuum. There 
are ways to be both secure and smart about how we address our security 
challenges. Sometimes the answers lie in front of us, if only we care 
to look.
    Thank you once again, Senator Sununu, for the opportunity to share 
these remarks and for your important interest in this matter.

    Senator Sununu. I appreciate that very much. I welcome the 
summary and the formal testimony.
    Let's begin with the day passes. You talked about that and 
the value that has and the way in which a day visit in some 
ways represents the special relationship we have with Canada.
    Was that something that was supported by the commission and 
do you share the concerns that have been expressed by the 
Department of Homeland Security that somehow the existence of a 
day pass would undermine the strengths or the value of the 
travel industry?
    Senator Gorton. Well, first we did recognize it. Like I 
said, that daily commuters should not be subject to the same 
measures as first-time travelers is one of our recommendations.
    Second, however, that didn't seem to find its way into the 
statute that the Department of Homeland Security is tasked with 
enforcing.
    Whether or not that means that Congress should review that 
particular subject itself is very much a question for you.
    Senator Sununu. You don't think that the Department could 
establish this kind of a program within the limits of the 
objectives stated in the legislation?
    Senator Gorton. I think it could. I think it would take a 
degree of imagination that is not often present in 
bureaucracies.
    Senator Sununu. Well put. Now, what about the idea of 
exempting children under a certain age, under 17, under 18, 
from the travel initiative?
    Do you think that an exemption for children would pose any 
particular security risk?
    Senator Gorton. I think it would depend on the age at which 
it's established.
    You know, as we look at the nature of terrorism around the 
world, there are teenagers, especially upper teenagers, who 
have been--clearly been very successful terrorists; but young 
children, it seems to me, don't present such a risk, and I 
think the exemption of a large number of younger children would 
not bring a security risk.
    Senator Sununu. Have you or any other commission members 
recommended any specific changes to the proposed rule?
    Senator Gorton. No, we have not, Mr. Chairman. As you know, 
the statute that established the 9/11 Commission caused us to 
go officially out of business one month after we filed our 
report. That is to say, we no longer existed as a commission in 
August 2004.
    We created a nonprofit corporation and raised enough money 
to keep a small staff until December 31 of last year, primarily 
to monitor and to comment on, as you well know, the actions of 
Congress and of the administration in following our 
recommendations.
    The report card was only fairly good and there were some of 
its--some of our provisions that weren't adopted at all and 
more that, while adopted by Congress, were not promptly 
implemented by the administration itself.
    But we were an extraordinarily successful commission in the 
sense that, appointed in a highly partisan fashion, we reached 
unanimity on not only the history which was--our main goal was 
to write a history of 9/11, to what led up to it, but in our 
recommendations as well; and we kept that unanimity by not 
going into many of the details that are vitally important.
    And so, as I sit in front of you here, I don't represent 
the commission, I represent my own views; but I try to keep 
them as consistent as I possibly can with what I think my 
fellow commissioners would agree with.
    Senator Sununu. One of the recommendations the commission 
did make was to establish more uniform standards for driver's 
licenses.
    We had originally established with--through legislation--a 
collaborative process that would involve States and directors--
motor vehicle directors in various States as well as Federal 
officials in establishing the standards for driver's licenses. 
That was effectively scrapped by subsequent legislation called 
REAL-ID.
    Do you have concerns about the loss of that consultative 
process and that interaction with the States and is there 
anything that can be learned from that experience that we 
should apply to this process?
    Senator Gorton. Oh, Senator Sununu, I'm not going down that 
road. You all passed the REAL-ID Act. It was largely consistent 
with our recommendations and it certainly has some, you know, 
real advantages in uniformity, losing that collaborative 
process.
    The collaborative process is very important, I think, to 
continue; but you have--as I understand it, there's a--intense 
differences of opinion in Congress and elsewhere with whether 
or not that REAL-ID Act, whether these driver's licenses should 
show citizenship or not; and then again if one looks back at 
WHTI and the Intelligence Act, it says these documents should 
denote identity and citizenship.
    Senator Sununu. Now, citizenship directly was not a 
recommendation of the commission; is that correct?
    Senator Gorton. It was not.
    Senator Sununu. The commission did not recommend that?
    Senator Gorton. No, the commission simply said identities 
should be securely verified.
    Senator Sununu. A couple of questions about the--really 
getting back to nuts and bolts and human behavior.
    To what extent do you think some of the costs associated 
with the program might be a barrier and have you personally 
looked at or considered any of the existing commuter programs 
and their costs and their acceptance?
    Is there a strong connection between the two, cost and 
acceptance?
    Senator Gorton. Cost is a barrier. That Zogby poll I 
referred to earlier said that only 30 percent of Americans were 
willing to spend even $25 on border crossing, 49 percent wanted 
it for free.
    Now, I don't think that that means that no one would spend 
that money if they were required to do so, but what it does 
show is, you know, the resentment of people who are accustomed 
to traveling to Canada to having restrictions placed on that 
travel that have never existed historically and which they--and 
when they're thinking of a country, Canada, that they certainly 
don't deem to be a terrorist threat to the United States.
    So at the very least, the outreach is going to have to be 
10 times as effective as it's been so far to gain the--even a 
minimal acceptance of--you know, of these ideas.
    Yes, cost is a barrier. The nature of the documentation is 
a barrier.
    Senator Sununu. To what extent is reciprocity important?
    It's my understanding that at this point in time Canada 
doesn't intend to reciprocate with a version of the PASS card, 
one of the proposals that was discussed by Homeland Security.
    Is it important that the rules, regulations, documentation 
that's allowed for are completely reciprocal?
    Senator Gorton. It would be a significant advantage to have 
them completely reciprocal.
    We couldn't do something that we felt severely compromised 
our security in order to reach reciprocity; but if Canada 
doesn't create some kind of document of that sort, then under 
present rules, almost only a passport--Canadian passport is 
going to count, and that quite clearly I think will reduce 
Canadian tourism into the United States and will be a 
significant economic and social disadvantage to us.
    So reaching that reciprocity or that further goal that 
you've outlined yourself of an almost total uniformity should 
be something that our Government and administration should put 
high on its priority list.
    Senator Sununu. Well, I want to thank you. I recognize that 
you don't speak for the commission, but without question your 
experience on the commission, working with the other members 
and chairing this outreach effort, is something that's very 
valuable to us, which does lead me to one final question about 
that communications effort.
    I know you've spoken about this issue around the country, 
but it's important not just that you do so or that we hold a 
public hearing here but that the Government undertake real 
outreach efforts through the State Department, through the 
Department of Homeland Security.
    Can you comment on any success or shortcomings that you 
have seen in the communications and outreach effort by the 
Government with regard to this mission?
    Senator Gorton. Well, I wouldn't have known that that 
communications outreach even existed had this group whom I 
represent here not come to me and talked to me about this 
issue, so I think that's probably the best answer that I can 
give to you, Mr. Chairman.
    Senator Sununu. And, as is typical, a very clear answer. 
Thank you, Senator.
    Senator Gorton. Mr. Chairman, it's a real pleasure for me 
to come back to New Hampshire, among other things because I'm a 
Dartmouth alumni.
    Senator Sununu. You are welcome any time. At this time I'd 
like to call forward State Senator Carl Johnson and the head of 
the New Hampshire Snowmobiler's Association.
    Welcome, Senator. Welcome, Gail.
    Mr. Johnson. Thank you.
    Ms. Hanson. Thank you.
    Senator Sununu. Gail Hanson represents the New Hampshire 
Snowmobiler's Association; and for those of you that have 
traveled north of the Notches, you know well that winter's 9 or 
10 months of the year, so that represents really the heart and 
the soul of the travel and tourism industry during much of the 
season.
    They're active in trail management and safety issues, 
education and, I think as volunteer community organizations go, 
they're about as closely connected to the community and the 
members they represent as any organization I know.
    And Senator Carl Johnson has served in the New Hampshire 
State Senate for a few years but, equally as important, he is a 
long-time resident of New Hampshire and understands well, both 
the unique ties that we've been talking about between the 
United States and Canada, but also the legislative process here 
in New Hampshire and any impact that these proposals might have 
on State policies. We welcome you both.
    Why don't we begin with Gail Hanson.

  STATEMENT OF GAIL HANSON, EXECUTIVE DIRECTOR, NEW HAMPSHIRE 
               SNOWMOBILER'S ASSOCIATION, BOW, NH

    Ms. Hanson. Good morning, Senator Sununu and distinguished 
members of Federal Government and community.
    My name is Gail Hanson. I'm the executive director of the 
New Hampshire Snowmobile Association, and I appear before you 
on behalf of the snowmobile association in support of issuing a 
border crossing card to United States citizens for the purpose 
of traveling to the border region or beyond in Canada.
    To explain our support for this, I'd like to present a 
brief introduction about the sport of snowmobiling.
    Snowmobiling is recognized by economic planners as a major 
job generator and an important part of the economic engine in 
rural America.
    Over $27 billion worth of economic activity occurs because 
of snowmobiling, the majority of the money generated by 
tourist-
related activities.
    Approximately $1.2 billion is the result of new snowmobile 
sales alone. Slightly over $1 billion worth of parts, garments, 
and accessories were sold in the marketplace this year; and 
that's a 15 percent increase from last year.
    Sales of snowmobile registrations, licenses, and permits 
reached a new record high in 2006. It's estimated over 20,600 
snowmobile registrations and/or permits will be sold in North 
America this coming winter. Sales and permits and registrations 
generate over $120 million, most of which will go immediately 
back into the trail systems or to the development, improvement, 
and maintenance of one of the greatest recreational trail 
systems in the world. Over 2,000 miles of groomed trails and 
marked trails traverse North America, allowing snowmobiling 
families to see North America in a unique way that's not 
available to any other forms of recreation.
    Recent economic impact studies performed by Iowa State 
University and Plymouth State University and the University of 
Minnesota all show dramatic increases in snowmobile activity 
and the economic impact of snowmobiling on tourism. It's 
estimated over 95,000 full-time jobs are generated by the 
snowmobile industry alone.
    In addition to that, there's over 3,000 licensed dealers 
employing 60,000 full-time employees which serve as a large, 
important tax base to many of the rural towns and villages.
    About 10 percent of all the dollars spent by snowmobilers 
end up being directly collected by what we call the tax man in 
the State or province where snowmobiling occurs. Simple math 
shows snowmobilers pay approximately $2.7 billion in State and 
provincial taxes just during the winter season. Federal and 
local taxes would be added to that number and one could easily 
say the snowmobilers collectively pay over $4 billion in taxes 
each year.
    Travel and tourism in New Hampshire is the second largest 
industry in terms of jobs and attracting dollars from out of 
state. In 2004, there were over 328,000 overnight Canadian 
visitors. The average length of a stay for a Canadian overnight 
traveler was three nights and the average spending of Canadian 
travelers was up 46 percent in 2004 compared to 2000.
    Thousands of New Hampshire residents and tourists from 
other States and Canada come to New Hampshire to enjoy 
snowmobiling.
    In the recent economic impact study performed by Plymouth 
State University, it was found that snowmobile travel parties 
had direct spending within New Hampshire of $453 million and 
the total impact of snowmobile-related spending was $1.2 
billion for the State of New Hampshire.
    Direct spending by snowmobile travelers was 1 percent of 
the New Hampshire State gross product and was more than 10 
percent of all the travel spending in the State. With 
snowmobiling, the North Country businesses that would struggle 
in winter months now prosper.
    The reasons why so many residents and tourists come to New 
Hampshire to snowmobile is our over 7,000 miles of groomed 
snowmobile trails. We have more snowmobile trails in the State 
than there are roads to drive on. A snowmobiler can ride from 
the Massachusetts border to Canada on our trail system. Our 
trail system is constructed, maintained, and groomed by 
volunteer members of the 116 New Hampshire Snowmobile 
Association affiliated clubs.
    The association approximately put in 56,000 hours of labor 
last year in keeping the trails in tiptop shape so that 
tourists and citizens of New Hampshire could enjoy snowmobiling 
at its best.
    Where snowmobiling has such a significant impact on tourism 
in the State of New Hampshire, the new passport requirements 
for the United States and Canadian citizens entering the United 
States will certainly have a chilling effect on several aspects 
of everyday life along the border.
    There are more than 4 million snowmobilers in Canada and 
the United States. Surveys show that 94 percent of snowmobilers 
consider it a family activity. The overwhelming majority of 
snowmobile owners are married and have children. Snowmobiling 
appeals to all people of all ages, from youngsters to senior 
citizens.
    Studies reveal that snowmobilers generally like to ride 
close to home. On day trips snowmobilers travel between 30 and 
75 miles to their favorite riding areas. On any given winter 
weekend approximately 200-300 snowmobilers and their families 
take the opportunity to drive or ride their snowmobiles to the 
northern New Hampshire area into Canada to enjoy breakfast, 
lunch, or just a scenic ride.
    The requirements of a passport will be an additional 
expense for the families, based on public announcements that 
every U.S. citizen of any age must purchase a passport for the 
price of around $100, and $95 for children.
    Snowmobile travel is planned--planning is being done only 
days or weeks before a vacation or a weekend trip begins 
because of American's harried lifestyle.
    Adding to this equation, as with any type of sport that is 
based on the weather, and we all know it wasn't a good winter 
this winter, snowmobiling is truly a spur-of-the-moment 
activity. The new passport rules require long lead times for 
citizens thinking of crossing the border for any reason. We 
have been told the standard waiting time for U.S. passports is 
6 to 8 weeks.
    All of these requirements will take a significant toll on 
the weekend and daily travel to and from Canada by 
snowmobilers. Though this may seem trivial to some, obtaining a 
passport is really an unwanted sojourn into government 
bureaucracy to many on both sides of the border.
    A significant portion of New Hampshire's economy is based 
on tourism. Requiring a passport will have a negative impact on 
tourism and will definitely have a negative impact on the 
northern part of the State that depends heavily on snowmobiling 
for its winter tourism.
    We feel that the Western Hemisphere Travel Initiative is 
needed to tighten security and to protect our borders, but a 
concern that has arisen is that a very significant portion of 
North Americans do not travel overseas and only--their only 
foreign travel is to Canada.
    We urge you to look at the overall effects of this program 
and consider the BBC or laser visa for the document of choice 
for travel within Canada.
    Again, thank you, Senator Sununu, for inviting us, and I'd 
be happy to answer any questions.
    [The prepared statement of Ms. Hanson follows:]

 Prepared Statement of Gail Hanson, Executive Director, New Hampshire 
                    Snowmobile Association, Bow, NH

    Good morning Senator Sununu and distinguished members of the 
Federal Government. My name is Gail Hanson. I am the executive director 
of the New Hampshire Snowmobile Association (NHSA). I appear before you 
on behalf of the New Hampshire Snowmobile Association in support of 
issuing a ``laser visa'' or border crossing card (BBC) to United States 
citizens for the purpose of traveling to the border region or beyond in 
Canada. This ``visa'' or BBC should have conditions for its issuance 
and its use should be prescribed by Federal regulations.
    To explain our support for this, I would like to present a brief 
introduction about the sport of snowmobiling.
    Snowmobiling is recognized by economic planners as a major job 
generator and an important part of the ``economic engine'' in rural 
America. Over $27 billion worth of economic activity occurs because of 
snowmobiling, with the majority of the money generated by tourism-
related activities. Approximately $1.2 billion is the result of new 
snowmobile sales alone. Slightly over $1 billion worth of parts, 
garments, and accessories were sold in the marketplace this year, a 15 
percent increase from the previous year. Sales of snowmobile 
registrations, licenses, and permits reached a new record high in 2006. 
It is estimated that over 2,600,000 snowmobile registrations and/or 
permits will be sold in North America this winter season. The sales of 
permits and registrations will generate well over $120 million, most of 
which will go immediately back into the trail system in the 
development, improvement, and maintenance of the greatest recreational 
trail system in the world. Over 200,000 miles of groomed and marked 
trails traverse North America allowing snowmobiling families to see 
North America in a unique way not available to any other form of 
recreation.
    Recent economic impact studies performed by Iowa State University, 
Plymouth State University in New Hampshire, and the University of 
Minnesota all show dramatic increases in snowmobile activity and the 
economic importance of snowmobile tourism. It was estimated that well 
over 95,000 full-time jobs are generated by the snowmobile industry 
alone. In addition to that, approximately 3,000 licensed dealers, 
employing 60,000 full-time employees serve as an important tax base to 
many rural towns and villages. Using Standard Economic Impact Analysis, 
it should come as no surprise that a substantial segment of snowmobile 
spending ends up being collected by every State and province in taxes. 
Approximately 10 percent of all the dollars spent by snowmobiler's ends 
up being directly collected by ``the tax man'' in the State or province 
where snowmobiling occurs. Simple math shows snowmobilers pay 
approximately $2.7 billion in State and provincial tax alone during the 
winter season. Federal and local taxes would be added to that number 
and one could easily say that snowmobilers collectively pay over $4 
billion in taxes each year, enjoying the family recreation activity of 
snowmobiling.
    Travel and tourism is New Hampshire's second largest industry in 
terms of jobs and attracting dollars from out of state. In 2004, there 
were 328,600 overnight Canadian visitors. The average length of stay 
for Canadian overnight travelers was 3 nights, and the average spending 
of Canadian travelers was up 46 percent in 2004 in comparison to 2000.
    Thousands of New Hampshire residents and tourists from other States 
and Canada come to New Hampshire to enjoy snowmobiling. In the recent 
economic impact study performed by Plymouth State University, it found 
that snowmobile travel parties had direct spending within New Hampshire 
of about $453 million and the total impact of snowmobile-related 
spending was nearly $1.2 billion. The direct spending by snowmobile 
travelers was 1 percent of the gross State product and was more than 10 
percent of all travelers spending in the State. With snowmobiling, the 
North Country businesses that would struggle in winter months prosper. 
The reason why so many residents and tourists come to New Hampshire to 
snowmobile is the over 7,000 miles of groomed snowmobile trails. A 
snowmobiler can ride from the Massachusetts border to Canada on the 
trail system. Our trail system is constructed, maintained, and groomed 
by volunteer members of the 116 NHSA-affiliated snowmobile clubs. 
Approximately 56,000 hours of labor were spent last year by club 
members in keeping the trails in tiptop shape so the tourists and 
citizens of New Hampshire could enjoy snowmobiling at its best.
    Whereas snowmobiling has such a significant impact on tourism in 
the State of New Hampshire the new passport requirements for United 
States and Canadian citizens entering the United States will almost 
certainly have a chilling effect on several aspects of everyday life 
along the border.
    There are more than 4 million snowmobilers in Canada and the United 
States. Surveys show that over 94.5 percent of snowmobilers consider it 
a family activity. The overwhelming majority of snowmobile owners are 
married and have children. Snowmobiling appeals to people of all ages--
from youngsters to senior citizens. Studies reveal that snowmobilers 
generally ride close to home. On day trips, snowmobilers typically 
travel 30 to 75 miles to favorite riding areas or on favorite trails. 
On any given winter weekend approximately 200 to 300 snowmobilers and 
their families take the opportunity to drive/ride their snowmobiles 
from the northern New Hampshire area into Canada to enjoy breakfast, 
lunch, or just a scenic ride. The requirement of a passport will add an 
additional expense for families, based on public announcements that 
every U.S. citizen of any age must purchase a passport and acceptable 
passport photo at about $110 for adults and $95 for children.
    Snowmobile travel planning is being done only days or weeks before 
a vacation or weekend trip begins because of American's hurried life 
style. Adding to this equation, as with any type of sport that is based 
on the weather, snowmobiling is truly a spur-of-the-moment activity. 
The new passport rules require long lead times for citizens thinking of 
crossing the border for any reason. The standard waiting time for a 
U.S. passport is 6 to 8 weeks.
    All of these requirements will take a significant toll on the 
weekend and daily travel to and from Canada by snowmobilers. Though 
this may seem trivial to some, obtaining a passport is an unwanted 
sojourn into government bureaucracy to many on both sides of the 
border. A significant portion of New Hampshire's economy is based on 
tourism, and requiring a passport will have a negative impact on 
tourism and will definitely have a negative impact on the northern part 
of the State that depends heavily on snowmobiling for it's winter 
tourism.
    The Western Hemisphere Travel Initiative is needed to tighten 
security and to protect our borders, but a concern that has risen is 
that a very significant portion of North Americans do not travel 
overseas and their only foreign travel is to Canada. We urge you to 
look at the overall affect of this program and consider the BCC or 
``laser visa'' for the document of choice for travel within Canada.
    Thank you for your time. I would be happy to answer any of your 
questions.

    Senator Sununu. Thank you, Gail. You should feel free to 
ask me any questions as well. Rest assured, it's all about the 
sharing of perspectives and information.
    Senator, welcome. We're pleased to take your testimony.

STATEMENT OF HON. CARL R. JOHNSON, NEW HAMPSHIRE STATE SENATOR, 
 COCHAIR GENERAL COURT'S NH-CANADIAN TRADE COUNCIL, CONCORD, NH

    Mr. Johnson. Thank you, Senator. I am currently serving my 
sixth term as State Senator for New Hampshire's second 
district. Prior to the Senate, I had a privilege to serve as a 
State Representative for two terms and was also a small 
business owner here in New Hampshire.
    I would like to begin by thanking Senator Sununu in his 
capacity as chairman of the Senate Foreign Relations 
Subcommittee on International Operations and Terrorism for 
holding this hearing and providing me with the opportunity to 
testify regarding this very important issue.
    I agree with the Senator's position that the Western 
Hemisphere Travel Initiative could unintentionally harm travel, 
trade, and economic activity between New Hampshire, Northern 
New England, and Canada and, therefore, I look forward to 
today's hearing and the ideas that emerge.
    As a member of the State legislature, a former business 
owner and long-time resident of New Hampshire, I recognize the 
importance of improving the security along the northern border 
while maintaining the seamless trading practices that greatly 
benefit both nations' economies.
    In the wake of the 2001 terrorist attacks, there was an 
outcry, and justifiably so, for an in-depth examination of the 
security along the United States/Canadian border and the 
appropriate steps that needed to be taken to enhance the 
security for both United States and Canadian citizens.
    I also recognize and appreciate the motivation behind the 
drafting and passing of the Western Hemisphere Travel 
Initiative as part of the Intelligence Reform and Terrorism 
Protection Act of 2004. I know Senator Sununu played a key role 
in drafting that historic legislation from start to finish; and 
he and his colleagues in Congress understood, as I do, that if 
terrorists are able to hit us again, our economy would sustain 
a dramatic blow from which it would take years to recover.
    To that end, I believe that, along with modernization of 
infrastructure and making better use of technology to secure 
our northern border, steps must be taken to ensure that those 
who enter our country are who they say they are and are doing 
so for legitimate purposes.
    However, we must ensure that any initiatives aimed at 
securing our borders do not place any unnecessary impediments 
or restrictions on travel or trade between the United States 
and Canada.
    As a resident of Meredith, a town in New Hampshire's 
beautiful Lakes Region, whose economy relies directly on 
tourism dollars, I have witnessed firsthand exactly how 
important Canadian tourism dollars are to New Hampshire.
    Any program or initiative regarding border security, well-
intentioned as it may be, that could eliminate spur-of-the-
moment travel from Canada to the United States or create an 
undesirable experience at the border crossing could prove to be 
disastrous for the State's countless tourism sector businesses.
    Canadians spent $53 million during their 328,700 documented 
trips to the Granite State last year; and over the past 5 
years, tourism between New Hampshire and Canada has steadily 
increased.
    For example, Canadians who hiked the White Mountains or 
explored the Appalachian Trail more than doubled since 2002, 
amounting to over 730,000 visits in 2005. Those visitors spent 
$48 million in the Granite State, which is a 33 percent 
increase from 2004.
    And, as other witnesses have noted here today, a healthy 
Canadian economy benefits businesses in New Hampshire and 
across the United States.
    In fact, Canada's proximity and reliance on United States' 
small businesses for many imported goods and services has made 
it New Hampshire's largest trading partner; and in 2005 our 
State exported $567 billion or almost one-fourth of New 
Hampshire's total exports last year in goods and services in 
Canada.
    New Hampshire's second largest importer of New Hampshire 
goods and services, the Netherlands, represented less than half 
of that amount, $216 million.
    As the figures have cited, clearly a flawed implementation 
of WHTI will impact virtually all businesses in all sectors of 
the State's economy and therefore affect almost every resident.
    While WHTI is not scheduled to be fully implemented until 
2008, a recent report prepared by the Conference Board of 
Canada for the Canadian Tourism Commission determined that if 
the pending passport requirement was enacted in July of 2005, 
by 2008, 3.5 million fewer Canadians would have traveled into 
the United States, resulting in a loss of $788 million in 
potential tourism revenue.
    That is why, as cochairman of the New Hampshire-Canadian 
Trade Council, which was established in response to the U.S.-
Canada Free Trade Agreement of 1988, I supported a resolution 
to urge the United States Government to delay the 
implementation of the WHTI until such time that less onerous 
documentation requirements or passport substitutes can be 
considered.
    I was glad to see that Senator Sununu and New Hampshire's 
other U.S. Senator, Judd Gregg, supported an amendment to delay 
WHTI land-based crossing implementation by 17 months to June 1 
of 2009. That amendment was part of the Immigration Reform Bill 
that passed the U.S. Senate last week.
    Maintaining the free flow of travelers and commerce that 
currently takes place between the United States and Canada is 
of paramount importance to both the country's and New 
Hampshire's economy.
    In their report, the 9/11 Commission stated that the border 
and immigration system of the United States must remain a 
visible manifestation of our belief in freedom, democracy, 
global economic growth, and the rule of law; and I believe that 
any regulations placed on travel between the two countries must 
be done with each principle in mind.
    Thank you.
    [The prepared statement of Senator Johnson follows:]

Prepared Statement of Hon. Carl R. Johnson, New Hampshire State Senate, 
     Cochair General Court's NH-Canadian Trade Council, Concord, NH

    Good morning. My name is Carl Johnson and I am currently serving my 
sixth term as State Senator for New Hampshire's second district. Prior 
to the Senate I had the privilege to serve as a State representative 
for two terms and was also a small business owner here in New 
Hampshire.
    I would like to begin by thanking Senator Sununu, in his capacity 
as chairman of the Senate Foreign Relations Subcommittee on 
International Operations and
Terrorism, for holding this hearing and providing me with the 
opportunity to testify regarding this very important issue. I agree 
with the Senator's position that the Western Hemisphere Travel 
Initiative could unintentionally harm travel, trade, and economic 
activity between New Hampshire, Northern New England, and Canada, and 
therefore I look forward to today's hearing and the ideas that emerge.
    As a member of the State legislature, a former business owner, and 
longtime resident of New Hampshire, I recognize the importance of 
improving the security along the northern border while maintaining the 
seamless trading practices that greatly benefit both nation's 
economies. In the wake of the 2001 terrorist attacks, there was an 
outcry, and justifiably so, for an in-depth examination of the security 
along the United States-Canadian border and the appropriate steps that 
needed to be taken to enhance the security for both United States and 
Canadian citizens.
    I also recognize and appreciate the motivation behind the drafting 
and passing of the Western Hemisphere Travel Initiative as part of the 
Intelligence Reform and Terrorism Protection Act of 2004. I know 
Senator Sununu played a key role in drafting that historic legislation 
from start to finish, and he and his colleagues in Congress understood, 
as I do, that if terrorists are able to hit us again, our economy would 
sustain a dramatic blow from which we would take years to recover. To 
that end, I believe that along with modernization infrastructure and 
making better use of technology to secure our northern border, steps 
must be taken to ensure that those who enter our country are who they 
say they are, and are doing so for legitimate purposes.
    However, we must ensure that any initiatives aimed at securing our 
borders do not place any unnecessary impediments or restrictions on 
travel or trade between the United States and Canada. As a resident of 
Meredith, a town in New Hampshire's beautiful Lakes Region whose 
economy relies directly on tourism dollars, I have witnessed first hand 
exactly how important Canadian tourism dollars are to New Hampshire. 
Any program or initiative regarding border security, well-intentioned 
as it may be, that could eliminate ``spur of the moment'' travel from 
Canada to the United States, or create an undesirable experience at the 
border crossing could prove to be disastrous for the State's countless 
tourism-sector businesses.
    Canadians spent $53 million during their 328,700 documented tips to 
the Granite State last year. Over the past 5 years, tourism between New 
Hampshire and Canada has steadily increased. For example, Canadians who 
hiked the White Mountains or explored the Appalachian Trail more than 
doubled since 2002, amounting to over 730,000 visits in 2005. Those 
visitors spent $48 million in the Granite State, a 33 percent increase 
from 2004.
    And as other witnesses have noted here today, a healthy Canadian 
economy benefits businesses in New Hampshire and across the United 
States. In fact, Canada's proximity and reliance on United States' 
small businesses for many imported goods and services has made it New 
Hampshire's largest trading partner. In 2005, our State exported $567 
million--or almost one-forth of New Hampshire's total exports last 
year--in goods and services to Canada. New Hampshire's second largest 
importer of NH goods and services partner, the Netherlands, represented 
less than half of that amount ($216 million).
    As the figures cited make very clear, a flawed implementation of 
WHTI will impact virtually all businesses in all sectors of the State's 
economy, and therefore affect almost every resident. While WHTI is not 
scheduled to be fully implemented until 2008, a recent report prepared 
by the Conference Board of Canada for the Canadian Tourism Commission 
determined that if the pending passport requirement was enacted in July 
of 2005, by 2008, 3.5 million fewer Canadians would have traveled into 
the United States, resulting in a loss of $788 million in potential 
tourism revenue.
    That is why, as cochairman of the New Hampshire-Canadian Trade 
Council, which was established in response to the U.S.-Canada Free 
Trade Agreement of 1988, I supported a resolution to urge the United 
States Government to delay the implementation of the WHTI until such 
time that less onerous documentation requirements or passport 
substitutes can be considered. I was glad to see that Senator Sununu, 
and New Hampshire's other U.S. Senator, Judd Gregg, supported an 
amendment to delay WHTI land-based crossing implementation by 17 
months, to June 1, 2009. That amendment was part of the immigration 
reform bill that passed the U.S. Senate last week.
    Maintaining the free flow of travelers and commerce that currently 
takes place between the United States and Canada is of paramount 
importance to both the country's and New Hampshire's economy. In their 
report, the 9/11 Commission stated that, ``The border and immigration 
system of the United States must remain a visible manifestation of our 
belief in freedom, democracy, global economic growth, and the rule of 
law,'' and I believe that any regulations placed on travel between the 
two countries must be done with these principles in mind.

    Senator Sununu. Thank you, Senator. Gail, the estimated 
cost was something that--of the program, the cost of a PASS 
card or passport is something that you mentioned as having a 
potential impact.
    You know, on a relative basis, to what extent do you think 
that would discourage people from coming from Canada or 
snowmobilers going across the border. What are the costs or the 
scope of a typical trip?
    I would imagine a hundred dollars would, you know, 
represent a pretty significant portion of the cost of a weekend 
trip.
    Ms. Hanson. I don't think you'll find for a single person 
by himself it's that important. We're more concerned about 
families going back and forth and that's the big reason--I 
mean, where snowmobiling has grown is because it's a family 
sport.
    Senator Sununu. Do you think that an exemption for children 
from the program would be helpful?
    Ms. Hanson. I think an exemption for children would be 
great. I don't know what would be the best age.
    I think, you know, we've got a lot of problems age-wise 
with kids; but I think an exemption for kids would be great.
    And I think just the idea of, you know, still being able to 
take the family across the border up to Canada, you know, 
taking their picture crossing the border is a big thing for 
people in this area to do.
    I mean, it's amazing, you know, you get 200-300 people a 
day crossing the border up in Pittsburg to go up to Canada for 
breakfast. It's a mainstay of living in Pittsburg and Colebrook 
to go snowmobiling for the day.
    Senator Sununu. To what extent have you seen or heard 
communications or outreach efforts from the Federal Government 
and to what extent to you think your membership--average 
membership is aware of this initiative?
    Ms. Hanson. Currently we've got about 44,000 members in the 
snowmobile association in the State of New Hampshire, and I 
would say a good portion of them have no clue that they're 
going to need a passport.
    They just don't seem to read things like that. It's more 
important when the new snowmobile's coming out or, you know, 
what truck is on the market to pull the trailer; and you'll say 
something to them about, well, you know, you guys are going to 
need a passport in a couple of years and they're like this 
blank looks comes over their face and it's like, well, I'm not 
getting one, I just won't ride; or they'll say, well, if I have 
to, I will, but I won't bring my wife and kids.
    So, I mean, there's this definite, you know, we don't want 
change, we want to go back and forth and enjoy snowmobiling the 
way it's been; and then you'll get a kind of replay later that, 
well, you know, we do need something but can't they make it 
easier for us?
    Senator Sununu. Thank you. Senator Johnson, what 
suggestions would you make to the Federal Government, 
specifically about communication and outreach?
    With whom do you think Federal representatives need to be 
speaking today and what's the best mechanism for communicating 
both with State officials and your constituents about the 
timeline and requirements of the program?
    Mr. Johnson. With my experience with the New Hampshire-
Canadian Trade Council and traveling back and forth, basically 
at Calais customs, I find that many times even today it takes 
three-quarters of an hour to an hour back-up time to get 
through under today's processing, so we're very concerned about 
that time frame.
    And as you know, Senator, we also sent a resolution to 
Washington with our concerns with the Trade Council, so I think 
that it has to be something that can be processed at a much 
faster pace than what we are experiencing now even crossing the 
border.
    Senator Sununu. Are there specific suggestions that the 
Trade Council has made that you would tell us about?
    Mr. Johnson. I don't think we have gotten that far yet.
    We're going to have a conference in Plymouth, New 
Hampshire, on--in September and we'll be creating that invitee 
list for the Canadians and this will be the main topic of that 
conference, and we'll certainly be sure that you'll be invited 
to that conference.
    Senator Sununu. Thank you, and I very much appreciate your 
work on relations between the--New Hampshire and Canada and on 
the trade issues as well because of the enormous impact that it 
has on our economy.
    At this time, in the interest of meeting our scheduled 
commitments, I'd like to call forward our final panel.
    Henry Goode is the deputy director of the New Hampshire 
Division of Travel and Tourism Development; and Jayne O'Connor 
is the president of White Mountain Attractions.
    [Recess]
    Senator Sununu. Welcome to both of you. Why don't we begin 
with your testimony, Ms. O'Connor.

    STATEMENT OF JAYNE O'CONNOR, PRESIDENT, WHITE MOUNTAIN 
                ATTRACTIONS, NORTH WOODSTOCK, NH

    Ms. O'Connor. I'm Jayne O'Connor, I'm the president of the 
White Mountain Attractions Association. White Mountains is one 
of the seven tourism regions in the State of New Hampshire. 
Thank you very much for the opportunity to speak today.
    The businesses in my region depends on tourism. It's the 
major economic force in our area and sometimes it's the only 
economy in many of our towns.
    I'm observing the current situation or the upcoming 
situation from three angles as my association has 350 business 
members, we also operate a Visitor Center on Interstate 93 
which is one of the main travel routes from Canada, and we also 
operate Lost River Gorge, which is one of the major tourism 
attractions in the area.
    On behalf of all of these businesses, I ask for your help 
in softening the economic impact that's coming with the 
implementation of the Western Hemisphere Travel Initiative.
    For generations, American and Canadian families have easily 
crossed America's northern border for commerce and recreation. 
The businesses in the White Mountain region as well as other 
parts of New Hampshire were built and depend upon those 
Canadian visitors for a percentage of revenue. There's much 
concern, however, that the requirement that United States and 
Canadian citizens obtain passports to cross the border will 
create a significant obstacle for Canadian families planning 
vacations in New Hampshire.
    The problem is fairly easy to foresee. With the current 
cost of a passport application and photo of around $100, a 
Canadian family of four will spend an additional $400 and wait 
perhaps 6 to 8 weeks for a trip to the United States. For 
children, the fee will need to be paid again in 5 years as 
their passports expire earlier than those of adults. One can 
see how this will reduce the spontaneous trips to New Hampshire 
for outlet shopping, skiing, snowmobiling, and sightseeing.
    The high mountains of New Hampshire are currently a draw 
for the skiers and hikers from eastern Canadian. The beaches of 
Maine, New Hampshire, and Cape Cod are the closest and the most 
accessible seacoast for the population centers of Ontario and 
Quebec.
    And the tax-free shopping in New Hampshire makes our outlet 
shops in North Conway and Tilton popular weekend getaways for 
Canadians doing a little of what we like to call spontaneous 
retail therapy or recreation.
    It's hard to imagine many families will be willing to add 
$400 to their first spontaneous trip. This alone will reduce 
our Canadian travelers for many years to come. The visitors 
will be limited to those who feel that there's value in repeat 
trips or those who make their vacation plans many years--many 
months in advance, which is not the norm for families these 
days.
    In fact, many of the family trips are planned on such short 
notice that they depend on the weather forecast for the 
weekend. These trips will become impossible if any family 
member does not have a passport or proper documentation.
    The WHTI as written is an economic disaster waiting to 
happen to the tourism industry in many of these States and 
particularly those along the northern border, all of which will 
certainly bear a disproportionate burden as we estimate a 30 
percent decline in one of our current markets.
    Tourism, in general, was significantly impacted by the 
effects of 2001, with most businesses reporting decreases of 30 
percent or more at that time and lasting 18 months or more. 
It's been a struggle to come back.
    International tourism, which is an important part of our 
business, has been hardest hit. Canada is our largest and 
closest international tourism market. The Canadian dollar is 
currently on the rise, expected to be at a 28-year high; and 
the United States is once more becoming an affordable 
destination for our Canadian visitors.
    The high gas prices we see here are higher still in Canada 
and again makes it an affordable place for families to come and 
have a driving vacation. At the Visitor's Center, I hear this 
from the Canadian travelers who come in and say it may seem 
high to you, but to us we finally feel that we can go someplace 
and have a wonderful driving vacation.
    Businesses on this side of the border have invested a lot 
of money in marketing and advertising to bring the Canadians 
here in the hopes of stabilizing this Canadian market once 
more.
    My organization has raised money to bring travelers from 
Toronto, Montreal, and the Maritime Provinces. We've worked 
hard to make new contacts and relationships with Canadian sales 
partners.
    Our investment and those of our fellow businesses stands to 
be lost or greatly diminished if the WHTI goes into effect as 
written, which will also cause the United States to become less 
competitive in the world travel and tourism market.
    On behalf of the tourism businesses in the White Mountains 
and New Hampshire, I ask you that you cap the cost of a border 
crossing document at $25 as has been suggested to keep it from 
becoming a deterrent; also to exempt or waive the fee for 
children who rarely have passports; and, third, to institute a 
delay of 18 months to allow time and create and distribute the 
alternative documents in the United States and Canada, to 
install the proper readers at the border and to fully institute 
an educational program in Canada and the United States to 
improve the percentage of passports applied for.
    It was interesting to hear the discussion about the robust 
educational program that's in place. I do feel most of our 
businesses and our travelers are not aware of it; but perhaps 
we should use as a model the Postal Service, because every time 
a stamp goes up a penny or two, we all know the exact date that 
will go into effect.
    All of these will help to moderate the effects of the 
change and preserve the free flow of legitimate travel traffic 
across the border without compromising national security that 
is so important to all of us.
    My concern today is not for the inconvenience that this 
will cause to those who regularly cross the border. They will 
all adjust. My concern is for the Canadians who have a choice 
to make where they wish to travel and much of our money is 
spent on trying to catch their eye in that one small ad or 
television commercial to entice them to come here. And the 
convenience or the perception of being able to travel easily to 
the United States will be a factor. Therefore, the impact of 
this will last a very, very long time. The problem's going to 
be very real and very disruptive to our businesses.
    On behalf of the businesses I represent, I urge you to 
support the efforts to mitigate the effects of the 
implementation of the WHTI on the border states.
    Thank you very much.
    [The prepared statement of Ms. O'Connor follows:]

    Prepared Statement of Jayne O'Connor, President, White Mountain 
                    Attractions, North Woodstock, NH

    Thank you for the invitation to address the committee.
    My association is one of seven official tourism regions in the 
State of New Hampshire, and works to improve the economy of this 
region, which is fueled primarily by tourism and retail business.
    For generations, American and Canadian families have crossed 
America's northern border for commerce and recreation, while 
documenting their citizenship with birth certificates and drivers 
licenses. Over the years, many businesses in the White Mountains 
region, as well as other regions of New Hampshire, have been built 
upon, and now depend upon, a continuation of the free flow of Canadian 
travelers into the United States.
    My organization and businesses are gravely concerned, however, that 
the requirement established in the Western Hemisphere Travel Initiative 
requiring United States and Canadian citizens to obtain passports to 
cross the border will create a significant obstacle for Canadian 
families planning vacations in New Hampshire.
    The problem is easy to anticipate. First, a Canadian family of four 
needing passports to come here will need to add approximately $400 (for 
passport application fees and photos) to the cost of their trip to the 
United States. It is hard to imagine many families willing to add such 
an expense, which may nearly double the cost of a weekend trip. This, 
alone, will reduce our Canadian travelers to those who feel there will 
be a value if they plan repeat trips, and those who make their vacation 
plans many months in advance, which is no longer the norm.
    Second, many family trips, including those to nearby New Hampshire, 
are planned on such short notice that they depend on the weather 
forecast. By adding 6 to 8 weeks to obtain a passport, plus planning 
time to gather the necessary documents, this will certainly curtail 
those spontaneous trips for sightseeing, skiing, or shopping--all major 
economic drivers in New Hampshire.
    The WHTI, as written, is an economic disaster waiting to happen to 
the tourism industry in many States, and particularly the northern 
border States, all of which will certainly lose more Canadian visitors 
than they can afford.
    Tourism, in general, was significantly impacted by the events of 
2001, with most businesses reporting decreases of 30 percent or more, 
and lasting 18 months or more. It has been a struggle to come back from 
the economic impact. Canada is our largest tourism market outside the 
United States. Recent adjustments in the exchange rate have once again 
made the United States an affordable destination for Canadian visitors, 
and has spurred companies here to invest in marketing and advertising 
to Canadians in the hopes of stabilizing the market once more. My 
organization has raised money to bring travelers from Toronto, 
Montreal, and the Maritime Provinces, and has worked hard to make new 
contacts and relationships with Canadian sales partners. This 
investment stands to be lost or greatly diminished if the WHTI goes 
into effect as written, and the convenience factor for travel to the 
United States is gone.
    This will cause the United States to become less competitive in the 
travel and tourism market, and the tourism businesses of New Hampshire 
and the other border States will pay a significant and disproportionate 
toll.
    To put some numbers on it:

  <bullet> Estimates in the United States are that 1 in 12 Canadians 
        will stay home following implementation of the WHTI, as 
        written, resulting in a loss to the United States in Canadian 
        spending of $500 million a year. (The Western Washington Center 
        for Business and Economic Research.)
  <bullet> However, Canadian estimates put that number higher, at an 
        anticipated $785 million lost by 2008 if the WHTI requirements 
        are not amended. (The Conference Board of Canada.)
  <bullet> In addition, a poll of Canadians and Americans on both sides 
        of the border by Zogby International, has concluded that 55 
        percent of the 60 percent of Canadians who do not presently 
        have passports will not get them.

    This suggests that, in actuality, 1 in 3 Canadians will stay home, 
4 times the original estimate, and that the reduction in spending will 
be far, far higher (perhaps 4 times higher) than a half a billion 
dollars a year.
    This is getting serious, and what is seriously needed is a 
mitigation of the effects of the WHTI on the economies of the border 
States.
    The solution may be to cap the cost of an alternative border 
crossing document at $25, as has been suggested, and to exempt 
children, or at a minimum, waive the fee for children (who generally do 
not possess passports, but who are part of every ``family trip'').
    Additionally, a delay of at least 18 months is needed to create and 
distribute the alternative documents in the United States and Canada, 
and to install the technology to read the cards at the border.
    All of these would help moderate the effects of the change and 
preserve the free flow of legitimate traffic across the border without 
compromising national security.
    Canada is expected to put in place reciprocal legislation to allow 
Canadians to go to the United States. This should be addressed in any 
amendment to the WHTI.
    The effects will be palpable in New Hampshire, where travel and 
tourism is the second largest industry, and especially in the White 
Mountains, where tourism is the main economy. The businesses of the 
Mount Washington Valley around North Conway depend on Canadians who 
make spontaneous shopping trips to the dozens of outlet stores that 
rely on the influx of visitors.
    The result will be a ripple that will depress the economy of all 
businesses in the region. None of these alternatives is good news for 
any New Hampshire business, in or out of the tourism industry.
    This problem is going to be very real, and very disturbing to the 
businesses in the White Mountains region that I represent, and for whom 
a continuation of the free flow of Canadian visitors can be the 
difference between red and black ink, extinction or survival.
    On behalf of my the businesses in the White Mountains, I urge you 
to support efforts to mitigate the effects of the implementation of the 
WHTI on the border States by reducing the cost of border crossing 
documents to a nominal level, and exempting or waiving the cost for 
children, most of whom do not have passports but who are part of every 
family vacation, and by delaying implementation for at least 18 months 
until technical issues can be resolved.
    Thank you.

    Senator Sununu. Thank you very much.
    Mr. Goode, welcome.

   STATEMENT OF HENRY GOODE, DEPUTY DIRECTOR, NEW HAMPSHIRE 
    DIVISION OF TRAVEL AND TOURISM DEVELOPMENT, CONCORD, NH

    Mr. Goode. Thank you. Thank you, Senator, for holding this 
field hearing and allowing us to address this committee. I am 
here today representing Alice DeSouza, the Director of Travel 
and Tourism Development for the State of New Hampshire, and 
present her testimony.
    On behalf of the tourist industry throughout New Hampshire, 
I urge you to support efforts that will minimize the negative 
impacts on New Hampshire's economy that will surely result if 
the WHTI as currently proposed is adopted.
    To give you a sense of the economic impact of the Canadian 
visitor market, I offer the following. Canadian travel to New 
Hampshire represents our largest international vacation travel 
segment with an estimated 328,000 1-night or more stays in 
2004, which was a 6 percent increase over 2003.
    The average spending by Canadian overnight travelers was up 
46 percent in 2004 over the year 2000.
    Additionally, in 2004, there were an estimated 465,000 day 
trips to New Hampshire to visit family and friends and to take 
advantage of tax-free shopping at an increasingly attractive 
exchange rate.
    Recognizing the significant impact on our economy of the 
Canadian travel dollar and the considerable opportunity for 
developing further the tourism market from Canada, our office, 
Travel and Tourism Development, has established a relationship 
with Travel Marketing Experts, Inc., who promote tourism to New 
Hampshire on our behalf.
    Following are a few comments from Christopher Ryall, 
president of that company: The Western Hemisphere Travel 
Initiative will affect both tourism and trade between our two 
countries. New Hampshire and other border States are especially 
vulnerable to sustaining losses from this initiative.
    From a Canadian perspective, the requirement of a passport 
will be a hindrance and a costly exercise. Currently, passports 
for Canadian citizens are only valid for 5 years versus 10 
years in the United States.
    The current fee for an adult passport, 16 years or older, 
is $92 Canadian and $39 for a child's passport 3 to 15 years of 
age. For a family of four, once photos are secured, papers 
submitted, et cetera, the costs will reach close to $300.
    For senior travelers, who for decades have not been 
required to have a passport to travel to the United States, the 
process and expense of obtaining a passport is likely to result 
in remaining in Canada.
    It is our belief that if WHTI's implemented in its current 
form, it will have a major impact on those short getaways or 
same-day visits to New Hampshire. Of the 793,800 New Hampshire 
visits, 465,000 are same-day visits. State Parks, retail 
outlets, area attractions, and New Hampshire's craft shops will 
all feel the impact of this loss.
    It is quite clear that from both sides of the border, 
neither government currently has adequately funded or has 
allocated necessary human resources to handle the onslaught of 
increased passport applications, if indeed people apply for 
them.
    Finally, besides the devastating effect of WHTI in its 
current form and time frame would have on tourism revenues, it 
will also have tremendous impact on the close to $400 billion 
in trade between Canada and the United States, again with the 
border States bearing the brunt of the loss.
    It is impossible to think of New Hampshire's people, 
places, and traditions without recognizing the important role 
our relationship with Canada has had in shaping New Hampshire 
and the economic contribution that relationship provides.
    I urge you to support all efforts to mitigate the certain 
devastating impact WHTI in its present form will have on New 
Hampshire's social and economic future.
    Specifically, reduce the cost of border crossing by waiving 
the cost of children and seniors, most of whom who do not have 
passports but who are part of the majority of the family 
vacations and visits to family and friends here as well, to a 
nominal fee for families and for seniors and delay 
implementation for at least 18 months in order to resolve 
technical and procedural issues from both sides of the border.
    Thank you, Senator.
    [The prepared statement of Mr. Goode follows:]

   Prepared Statement of Henry Goode, Deputy Director, New Hampshire 
        Division of Travel and Tourism Development, Concord, NH

    Thank you for holding this field hearing and allowing us to address 
the committee.
    I am here today representing Alice DeSouza, the Director of Travel 
and Tourism Development for the State of New Hampshire and to present 
her testimony.
    ``On behalf of the tourism industry throughout New Hampshire, I 
urge you to support efforts that will minimize the negative impacts on 
New Hampshire's economy that will surely result if the WHTI as 
currently proposed is adopted.
    ``To give you a sense of the economic impact of the Canadian 
visitor market, I offer the following:

  <bullet> Canadian travel to New Hampshire represents our largest 
        international vacation travel segment, with an estimated 
        328,000 1-night or more stays in 2004, a 6 percent increase 
        over 2003.
  <bullet> The average spending by Canadian overnight travelers was up 
        46 percent in 2004 over the year 2000.
  <bullet> Additionally, in 2004, there were an estimated 465,000 day 
        trips to New Hampshire to visit family and friends and to take 
        advantage of tax-free shopping and an increasingly attractive 
        exchange rate.

    ``Recognizing the significant impact on our economy of the Canadian 
travel dollar and the considerable opportunity for developing further 
the tourism market from Canada, this office has established a 
relationship with Travel Marketing Experts, Inc., who promote tourism 
to New Hampshire on our behalf. Some comments from Christopher Ryall, 
President of that company'':
    ``The Western Hemisphere Travel Initiative will affect both tourism 
and trade between our two countries. New Hampshire and other border 
States are especially vulnerable to sustaining losses from this 
initiative.
    ``From a Canadian perspective, the requirement of a passport will 
be a hindrance and costly exercise. Currently, passports for Canadian 
citizens are only valid for 5 years versus 10 years in the United 
States. The current fee for an adult passport (age 16 years and older) 
is $92 Canadian and $39 for a child's passport (3-15 years of age). For 
a family of four, once photos are secured, paperwork submitted, etc., 
the cost will reach close to $300. For senior travelers, who for 
decades have not been required to have a passport to travel to the 
United States, the process and expense of getting a passport is likely 
to result in their remaining in Canada.
    ``It is our belief that if WHTI is implemented in its current form, 
it will have a major impact on those short getaways or same-day visits 
to New Hampshire. Of the 793,800 New Hampshire visits, 465,000 are 
same-day visits. State parks, retail outlets, area attractions, and New 
Hampshire's craft shops will all feel the impact of this loss.
    ``It is quite clear that from both sides of the border, neither 
government currently has adequately funded or has allocated the 
necessary human resources to handle the onslaught of increased passport 
applications--if indeed people apply for them at all.
    ``Finally, besides the devastating affect WHTI in its current form 
and time frame would have on tourism revenues, it will also have a 
tremendous impact on the close to $400 billion in trade between Canada 
and the United States, again with the border States bearing the brunt 
of the loss.''
    ``It is impossible to think of New Hampshire's people, places, and 
traditions, without recognizing the important role our relationship 
with Canada has had in shaping New Hampshire and the economic 
contribution that relationship provides.
    ``I urge you to support all efforts to mitigate the certain 
devastating impact WHTI in its present form will have on New 
Hampshire's social and economic future.
    ``Specifically, reduce the cost of border crossing by waiving the 
cost for children and seniors, most of whom do not have passports, but 
who are part of the majority of the family vacations and visits to 
family and friends to a nominal level for families, seniors, and delay 
implementation for at least 18 months in order to resolve technical and 
procedural issues on both sides of the border.''
    Thank you.

    Senator Sununu. Thank you, Henry. Let me begin with you.
    You may have mentioned it in your testimony, but I'm 
curious to know what percentage of employment in this State is 
travel- or tourism-related.
    Mr. Goode. I don't have that number right off the top of my 
head.
    Ms. O'Connor. I don't have the exact number, but I do know 
that travel and tourism is the second life's breadth of our 
economy in New Hampshire.
    Senator Sununu. Thank you. And, Henry, I think it's safe to 
say that all regions of this State would be affected, certainly 
more visits in the North Country, but is the industry pretty 
well represented in all 10 counties effectively?
    Mr. Goode. Statewide, yes.
    Senator Sununu. Does your Department have any ongoing 
efforts to monitor the crossings, volume of traffic, or delays 
with your counterparts in Canada?
    Mr. Goode. Not to my knowledge.
    Senator Sununu. And, Jayne, to what extent have you seen or 
felt any outreach efforts at the Federal level?
    I mean, are there members or participants in the industry 
in the White Mountains that have joined together to speak about 
these issues? Have you had any visits or communications by 
representatives from Homeland Security or the State Department?
    Ms. O'Connor. In the White Mountains I have not seen any of 
that take place for the most part. I have to say that there are 
some organized efforts to have the folks from the passport 
centers at such things as the international powwow which is for 
organized travel agents and tour operators from around the 
world.
    What it doesn't get to--what it only gets to are the people 
who actually plan their trip through a tour operator.
    Senator Sununu. It hasn't dealt directly with the travel 
industry?
    Ms. O'Connor. Not directly with the consumer.
    Senator Sununu. You talked in nice clear, specific terms 
about the cost and made recommendations with regard to the 
cost.
    What about the issue of delays? To what extent do you think 
that delays at the border have an impact on traffic and the 
number of visits and is there anything that White Mountain 
Attractions has done to try to monitor or quantify the effect 
of border delays?
    Ms. O'Connor. I think because our border crossings mostly 
happen through Vermont and Derby Line has a fairly efficient 
setup right now, we only occasionally hear of delays.
    The delay that concerns me more is the 4 to 6 to 8 weeks of 
securing documentation and the effect it will have on 
spontaneous trips.
    It's very common now for us to have families or friends 
gather for a quick trip to Montreal or Drummondville or 
somewhere up over the border and the same thing for the folks 
who are coming down from Canada, so the delay in getting 
documentation is what really scares me.
    I'm not sure how to get around that; and that's why I feel 
that the educational aspects of this is going to be very, very 
important first to minimize the damage.
    Senator Sununu. Well, I thank you both. Your comments about 
Derby Line are well taken. Fortunately or unfortunately, that 
was the crossing that recently had the delays due to the ID 
checks at the border; but perhaps it's a positive step in that 
we begin to see and understand what the impact of these new 
requirements might be and that puts us in a better position to 
deal with the kind of mitigation that both of you have raised 
in your testimony and in looking at appropriate costs, 
appropriate documentation, and appropriate exemptions for 
either younger or older Americans.
    Again, I want to thank all of our panelists for their 
testimony, thank our audience members. I know there are a lot 
of people who are here today that have a very direct interest 
in these issues, a very direct interest in trade, in 
commercial, in business issues, as well as the travel and 
tourism and the cultural ties that exist today and have existed 
for decades between New Hampshire and Canada.
    My goal as a member of the Foreign Relations Committee is 
simply to make sure that these views are well represented, that 
we carefully consider all of these proposals for mitigating the 
impacts while providing for reasonable, realistic security at 
our borders and around the world.
    So, the panelists have been extremely helpful in making 
this hearing a success and, with that, the hearing is 
adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Jim Roche, President, Business and Industry 
                       Association, New Hampshire

    Senator Sununu, thank you for the opportunity to comment on issues 
relating to the Western Hemisphere Travel Initiative. For the record, 
my name is Jim Roche and I am president of the Business & Industry 
Association, New Hampshire's State Chamber of Commerce.
    It goes without saying that the BIA appreciates and supports the 
need for strong border security and understands the significant and 
serious terrorist threats and potential terrorist activity against our 
country. At the same time, we believe you are aware and understand the 
importance of the tourism industry to New Hampshire's economy. Canada 
is not only our most important trade partner, Canadian visitors 
contribute millions in general fund revenue to New Hampshire each year 
via rooms and meals tax dollars, liquor sales, and business taxes from 
tourism-related establishments. Tourism is an engine that drives job 
creation and economic growth for the State and the region.
    In fact, travel and tourism is New Hampshire's second largest 
industry in terms of jobs and out-of-state dollars, according to the 
New Hampshire Division of Travel and Tourism, and Canada remains the 
top country of origin of overnight international visitors to the State. 
In 2002, 279,000 Canadians visited New Hampshire overnight, spending 
$36 million, or an average of $129 per person per visit.
    We are concerned that provisions in the Western Hemisphere Travel 
Initiative could kill the goose that lays this golden egg, or at the 
very least, stunt its growth. It doesn't take much in the way of 
discouraging tourism before the U.S. and New Hampshire economies begin 
to suffer. The Business for Economic Security, Tourism and Trade, an 
international coalition of businesses and trade associations from 
across the United States and Canada that share a common concern about 
the ramifications of the Western Hemisphere Travel Initiative, has 
estimated that losing just one out of 12 Canadian visitors to the 
States will result in a loss of more than $532 million.
    Because the potential for unintended negative consequences is so 
clear, the BIA is asking for a delay in the implementation of WHTI 
until the summer of 2009, and we support the Senate's recent passage of 
a resolution doing just that. We also strongly urge you to consider and 
support provisions of the Coleman Amendment that exempt children under 
18 who are traveling with parents, or at the very least, waives fees 
associated with new documentation; and cap the cost of new 
documentation at $20, or at the minimum, an amount that will not deter 
people from engaging in travel between our State and Canada.
    Once again we thank you for taking the time to consider our 
thoughts, and for organizing this special Senate Foreign Relations 
Subcommittee on International Operations and Terrorism field hearing.
                                 ______
                                 

Prepared Statement of France Dionne, Quebec's Delegate to New England, 
                               Boston, MA

    The Government of Quebec firmly believes that security is a 
prerequisite for trade and fully supports the underlying objectives of 
the WHTI, namely those related to enhancing security and harmonizing 
identity document standards between Canada and the United States. 
However, we are very concerned about the negative impact that the 
current proposal would have on trade, tourism, and the daily lives of 
thousands of citizens in border communities in both the United States 
and Canada,
including Quebec communities. For example, a study published last year 
by the Conference Board of Canada estimated that the implementation of 
the WHTI would result in a reduction of approximately US $265 million 
in expenditures in the United States by Canadian tourists in 2008.
    To a large extent, our mutual economic prosperity depends on our 
ability to maintain a Canada-United States border that is secure, open, 
and free-flowing. Sig
nificant progress has been accomplished in this area, particularly 
through the implementation of the Canada-U.S. Smart Border Action Plan, 
to which Quebec is a contributor. Major infrastructure investments made 
by Governments in both Canada and the United States since 2001 have 
facilitated cross-border travel and have contributed to a more secure 
border.
    The Canada-United States border relationship is unique with more 
than 300,000 business people, tourists, and regular commuters traveling 
between Canada and the United States every day, and more than $1.1 
billion in two-way trade each day, contributing therefore to a real 
improvement in the standard of living of Canadians and Americans. 
Quebec is a key economic partner of the United States and of New 
England, in particular. In 2004, Quebec alone was the fourth-largest 
destination for American exports. We import annually more than $20 
billion in goods from the United States. Close to 2 million trucks 
cross the Quebec-United States border in both directions every year, as 
an estimated 64 percent of trade in goods between Quebec and the United 
States is shipped by truck.
    Quebec is a particularly important international market for New 
England businesses. In 2005 alone, it has imported more than $3.5 
billion in New England products. Thousands of jobs in the United States 
also depend on investments by Quebec companies and the ability of these 
businesses to export products back to Canada. This economic 
relationship goes beyond trade, however. On average, some 3 million 
Quebecers visit annually the United States. These trips generate over 
$1 billion in yearly revenues for the U.S tourism industry. Last year, 
320,000 Canadians citizens visited the Granite State, and, with the 
stronger Canadian dollar, we can anticipate that this number will 
increase this year. As well, important and vibrant cultural and family 
relationships exist between Quebec and New Hampshire. Some 25 percent 
of New England population is from French-Canadian origin.
    We believe strongly that the Canada-United States border must be 
secure, open, and free-flowing. In response to the changing security 
environment, the Government of Quebec has implemented, over the past 
few years, critical measures in order to make a tangible contribution 
to continental security. On the domestic front, the Government of 
Quebec has updated its legislative framework, upgraded its operational 
capabilities, and strengthened cooperation among all security and law 
enforcement agencies. In the area of identity, the Government has 
devoted considerable efforts to ensure that civil status documents are 
delivered only to authorized individuals, and to strengthen their 
authenticity and traceability. These foundation documents are the 
cornerstone to an effective harmonization of identity document 
standards.
    Cooperation with northeastern United States is a key component of 
Quebec's security strategy. Since December 2003, we have signed 
bilateral security cooperation agreements with all four bordering 
States, including with New Hampshire. Quebec, along with 10 United 
States, is a member of the Northeast Regional Homeland Security 
Directors Consortium. We are cooperating with New England States 
through the Conference of New England Governors and Eastern Canadian 
Premiers. Quebec is also participating with the State of New Hampshire 
in the Canada-U.S. Cargo Security Project (CUSCSP), which aims at 
providing a rapidly assembled prototype test-bed for elements of cargo 
container supply chain security. The CUSCSP is a binational public-
private partnership and is coordinated by the N12 Center for 
Infrastructure Expertise located in Portsmouth, NH. Furthermore, last 
week, the Government of Quebec has released its new International 
Policy, which recognizes the transformation of the international 
security environment since September 11, 2001. In fact, one of the core 
objectives of our international policy is to contribute to the security 
of Quebec and the North American continent. Key initiatives in this 
area include measures aimed at strengthening our collaboration with the 
northeastern States, at both the bilateral and regional levels, as well 
as securing Quebec electricity infrastructures, some of which serve the 
New England market.
    In our opinion, the WHTI does not fully take into account the 
special nature of the Canada-United States border, notably the economic 
interdependence between the two countries and transborder regions, 
including the broader northeast of the continent, which is more and 
more integrated through trade and investment, as well as on the energy 
front. These binational regions are key engines of economic growth. The 
WHTI could therefore have a highly negative impact on the flow of 
cross-border traffic and harm North America's economic competitiveness. 
In our view, the initiative would have a significant impact on our 
citizens and economies located in the first 250 miles on both sides of 
the border because of the frequent movements that this easy car driving 
range offers to support international trade, investment, and tourism 
activities. As well, the Government of Quebec is very much aware of the 
particular relationships that unite border communities and the unique 
set of challenges they would face with the implementation of the 
current WHTI proposal.
    Furthermore, very important questions remain regarding the way the 
U.S Government intends to implement the WHTI. The procedures for 
checking the new travel documents at the border have not been 
determined; the feasibility of deploying the technology is still 
unknown; the impact on border infrastructures and cross-border flows 
has not been assessed; and, most importantly for border States, the 
economic and social impact of the WHTI has not been fully studied.
    Given these deficiencies, we feel that the timetable set forth 
under the Intelligence Reform and Terrorism Prevention Act is 
unrealistic. Hasty deployment of the WHTI, as currently outlined, would 
significantly limit the benefits of efforts devoted in recent years to 
improving security and enhancing the flow of traffic at the Canada-
United States border. On October 28, 2005, the Premier of Quebec, Mr. 
Jean Charest, wrote to the U.S. Secretary of State and the U.S. 
Secretary of Homeland Security to encourage the U.S. Government to 
adopt a flexible and reasonable approach in implementing the WHTI which 
would meet security imperatives while minimizing the negative impact on 
border crossings by legitimate travelers.
    It is important to note that numerous governors, premiers, United 
States and Canadian legislators, and representatives of binational 
regional forums, including the Conference of New England Governors and 
Eastern Canadian Premiers (NEG/ECP), and the Council of State 
Governments' Eastern Regional Conference, have expressed similar views 
with regard to the WHTI. On May 13, 2006, in Newport, Rhode Island, the 
NEG/ECP adopted an important joint resolution concerning the Western 
Hemisphere Travel Initiative. More specifically, the resolution, which 
was adopted on a proposal by Quebec and Vermont:

  <bullet> Requests the United States Government, following the 
        Regulatory Planning and Review process outlined in Executive 
        Order 12866, to conduct an economic and social analysis of the 
        anticipated impact of WHTI on cross-border trade, tourism, and 
        local community activities;
  <bullet> Urges the United States Government and the Government of 
        Canada to fully explore, in close consultation with States and 
        provinces, options with regard to the implementation of the 
        WHTI, including time lines, terms, technologies, transition 
        measures, and alternative identity documentation;
  <bullet> Confirms the NEG/ECP's intention to work with other 
        interested parties and organizations to urge Congress to delay 
        the implementation of the WHTI;
  <bullet> Urges the United States Government to revise the terms of 
        the implementation of the WHTI, to ensure that the border 
        between Canada and the United States remains secure and open.

    Recent legislative initiatives in Congress indicate that its 
Members are paying increasing attention to the legitimate concerns that 
have been expressed by border communities, as well as by business and 
the travel and tourism industries about the implementation of the WHTI. 
We are encouraged by these proposals, which represent, in our view, 
steps in the right direction. We are also encouraged by recent 
statements by President Bush confirming his administration's intention 
to work closely with the Government of Canada. We are very confident 
that through close collaboration between governments on both sides of 
the border, we will succeed in implementing the right measures.
    The Government of Quebec, for its part, wants to participate 
actively in the search for practical solutions that reconcile security 
imperatives with maintaining an open, free-flowing border. We share the 
United States' security concerns and will continue to contribute 
actively to continental security. We nevertheless feel that it is very 
important that any new measures taken by American authorities to 
control travelers' identity take into account the unique nature of the 
border between our two countries, and avoid any negative impact on the 
tourist industry, on good-neighbor relations between border communities 
and on North American competitiveness.
    A copy of the Premier's Charest letter to Secretary Rice and 
Chertoff is included as part of our submission.
                                 ______
                                 
                                    Gouvernement du Quebec,
                                          Quebec, October 28, 2005.
Ms. Condoleezza Rice,
Secretary, Department of State, Washington, DC.
Mr. Michael Chertoff,
Secretary, Department of Homeland Security, Washington, DC.
    Dear Secretary Rice and Secretary Chertoff: The Government of 
Quebec has taken note of the publication of the Advance Notice of 
Proposed Rulemaking on the Western Hemisphere Travel Initiative (WHTI). 
I would like to take advantage of the public comment period to express 
our serious concerns with regard to the WHTI, as currently drafted.
    We firmly believe that security is a prerequisite for trade. To a 
large extent, our mutual economic prosperity depends on our ability to 
maintain a Canada-United States border that is secure, open, and free-
flowing. Major progress has been made in this area, particularly 
through the implementation of the Smart Border Action Plan, to which 
Quebec is a contributor.
    In response to the changing security environment, the Government of 
Quebec has implemented, over the past few years, critical measures in 
order to make a tangible contribution to continental security. 
Cooperation with northeastern U.S. States, particularly through 
bilateral and regional agreements, is a key component of Quebec's 
security strategy. On the domestic front, we have updated our 
legislative framework, upgraded our operational capabilities, and 
strengthened cooperation among all security and law enforcement 
agencies. In the area of identity, the Government has devoted 
considerable efforts to ensure that civil status documents are 
delivered only to authorized individuals, and to strengthen their 
authenticity and traceability. These efforts make Quebec a reliable, 
credible United States partner when it comes to detecting, preventing 
and stopping terrorist activities.
    The Government of Quebec fully supports the underlying objectives 
of the WHTI. We are however very concerned about the negative impact 
that the WHTI, in its current form, will have on trade, tourism, and 
the daily lifestyles of thousands of citizens in border communities in 
both the United States and Canada. The fees and requirements for 
obtaining a passport, which is the only identification document 
specifically authorized under the current proposal for the WHTI, 
constitute significant obstacles that limit the number of people who 
hold this identification document and will substantially reduce 
transborder travel in both directions. In our opinion, the current WHTI 
proposal does not fully take into account the special nature of the 
Canada-United States border, notably the economic interdependence 
between the two countries and transborder regions. As such, the 
initiative could have a highly negative impact on the flow of cross-
border traffic and harm North America's economic competitiveness.
    Canada and the United States are neighbours and steadfast allies. 
Over the years, they have developed a unique bilateral relationship 
that is extremely advantageous for both countries. Since the 
implementation of NAFTA in 1994, bilateral trade has grown 
significantly, to reach over CDN $550 billion in 2004, contributing 
therefore to a real improvement in Canadian and American citizens' 
standard of living. Quebec imports annually about CDN $25 billion in 
goods from the United States. We are a key economic partner of a number 
of American States. For example, Quebec is New England's second-biggest 
international market and imported about CDN $3.8 billion in New England 
products in 2004. That same year, the State of New York exported close 
to CDN $3 billion in goods to Quebec. Thousands of jobs in the United 
States depend on investments by Quebec companies and the ability of 
these businesses to export products back to Canada.
    Hundreds of thousands of Americans and Canadians cross the border 
each day, for business reasons, vacations, and 1-day pleasure trips. On 
average, some 3 million Quebecers visit annually the United States. 
These trips generate average expenditures of CDN $1.3 billion per year. 
According to a recent study by the Conference Board of Canada, the 
implementation of the WHTI will mean a CDN $319 million drop in 
expenditures in the United States by Canadian tourists in 2008.
    In 2004, over 1.8 million trucks crossed the Quebec-United States 
border in both directions, and an estimated 64 percent of trade in 
goods between Quebec and the United States was shipped by truck. Major 
investments have been made by Governments in both Canada and the United 
States since 2001 to upgrade infrastructure and facilitate cross-border 
travel. However, the procedures for checking the new travel documents 
required under the WHTI will have negative impact on the flow of cross-
border traffic, as the current technology cannot allow for swift 
processing at border crossings. Given these technological deficiencies, 
we feel that the timetable set forth under the Intelligence Reform and 
Terrorism Prevention Act is unrealistic. Hasty deployment of the WHTI, 
as currently drafted, could significantly limit the benefits of efforts 
devoted in recent years to improving security and enhancing the flow of 
traffic at the Canada-United States border.
    For all of these reasons, the Government of Quebec considers that 
the American and Canadian authorities should closely examine the 
following measures:

  <bullet> Explicit recognition of FAST and NEXUS members' cards as 
        alternatives to a passport and the implementation of measures 
        by the American and Canadian Governments designed to enhance 
        the advantages of and encourage citizens' participation in the 
        FAST and NEXUS programs;
  <bullet> Establishment of a binational task force in order to 
        strengthen border management and security cooperation between 
        all pertinent government authorities.

    Given the issues raised by the current WHTI proposal, the 
Government of Quebec proposes that the deployment of the initiative be 
postponed. We feel that this postponement is necessary in order to 
allow authorities at the Federal, State and provincial levels in both 
countries to continue to consult their populations, carry out impact 
assessments and examine alternative measures to the passport 
requirement, notably the use of other common identification documents 
and exemptions for certain categories of tourists and border community 
residents.
    The Government of Quebec wants to participate actively in the 
search for practical solutions that reconcile security imperatives with 
maintaining an open,
free-flowing border. To this end, it will set up, in the next few 
weeks, an interdepartmental committee responsible for consulting and 
drafting proposals and recommendations on the security of 
identification documents that fall under provincial jurisdiction.
    I want to reiterate that Quebec shares the United States' security 
concerns and will continue to contribute actively to continental 
security. We nevertheless feel that it is very important that any new 
measures taken by American authorities to control travelers' identity 
take into account the unique nature of the border between our two 
countries, and avoid any negative impact on the tourist industry, on 
good-neighbour relations between border communities, and on North 
American competitiveness.
            Yours sincerely,
                                              Jean Charest,
                                               Le premier ministre.

                                  <all>

</pre></body></html>
